National      Office of
Science      Inspector
Foundation     General




                  Semiannual
                    Report to
                    Congress
                          March 2009
About The National Science Foundation...


The National Science Foundation (NSF) is charged with supporting and strengthening all
research discplines, and providing leadership across the broad and expanding frontiers of science and
engineering knowledge. It is governed by the National Science Board which sets agency policies and
provides oversight of its activities.


NSF invests over $5 billion per year in a portfolio of approximately 35,000 research and education
projects in science and engineering, and is responsible for the establishment of an information base
for science and engineering appropriate for development of national and international policy. Over time
other responsibilities have been added including fostering and supporting the development and use of
computers and other scientific methods and technologies; providing Antarctic research, facilities and
logistic support; and addressing issues of equal opportunity in science and engineering.


And The Office of the Inspector General...


NSF’s Office of the Inspector General promotes economy , efficiency, and effectiveness in administer-
ing the Foundation’s programs; detects and prevents fraud, waste, and abuse within the NSF or by in-
dividuals that recieve NSF funding; and identifies and helps to resolve cases of misconduct in science.
The OIG was established in 1989, in compliance with the Inspector General Act of 1978, as amended.
Because the Inspector General reports directly to the National Science Board and Congress, the Office
is organizationally independent from the agency.


About the Cover...


Original photo by Dr. Ken Busch, Investigative Scientist.
                                                                                  Table of Contents

OIG Management Activities ...........................................................................................7


Appointment of New IG .....................................................................................................7

The American Recovery & Reinvestment Act ...................................................................7

Congressional Testimony ..................................................................................................8

Legal Matters ......................................................................................................................9

Outreach ............................................................................................................................9


Audits & Reviews ........................................................................................................... 13


Significant Internal Reports .............................................................................................. 14

Significant Grant and Contract Audits .............................................................................. 15

A-133 Audits .....................................................................................................................20

Audit Resolution ...............................................................................................................24

Work in Progress ..............................................................................................................27


Investigations ..................................................................................................................29


Civil & Criminal Investigations ..........................................................................................29

Administrative Investigations .............................................................................................35

Research Misconduct Investigations ................................................................................ 41


Statistical Data ...............................................................................................................53


Appendix .........................................................................................................................65

[Blank Page]
                From the Inspector General


This Semiannual Report to Congress highlights the activities of the National
Science Foundation (NSF) Office of Inspector General (OIG) for the six months
ending March 31, 2009. During this period our office issued 13 reports contain-
ing questioned costs of $636,718. In addition our investigative staff closed
29 civil/criminal investigations, 33 administrative investigations and recovered
$1,294,136 for the government while referring seven cases to the Department of
Justice.

This Report is my first since being appointed Inspector General of the National
Science Foundation in late April. I want to thank the National Science Board for
giving me this rare opportunity to serve. Thanks are also due to Deputy Inspec-
tor General Tim Cross under whose leadership much of the work reported in
this period was conducted. Tim not only performed the duties of IG and Deputy
IG during this period of transition, but more than rose to the challenge when the
Recovery Act thrust many new responsibilities on our office.

These are difficult times for those of us in the Inspector General community.
As more federal funds are spent to bolster the economy, higher standards of
accountability and transparency are required to maintain the public’s confidence
in the institutions of government. OIGs are being asked to be more proactive
and to develop new ideas for preventing fraud waste and abuse (FWA) before it
occurs. Increasingly, Congress and the public expect OIGs to report on where
the risks reside as opposed to uncovering problems after they have occurred.

While these are formidable challenges, I believe that the National Science
Foundation’s OIG is well-positioned to meet them. Our OIG has historically
invested more of its resources in preventative activities than most. Our staff
regularly reaches out to the research community and NSF staff to make them
aware of their role in combating fraud and waste, and to alert them to what we
are finding in our audits and investigations. Since it is difficult if not impossible
to measure the value of FWA that is prevented, these efforts do not show up in
statistical tables or performance metrics, but pay large dividends nonetheless in
terms of raising awareness of accountability and compliance issues. I consider
this outreach a wise investment and plan to continue it.

The Semiannual Report carries information about our initial efforts in response
to the Recovery Act on p. 7, and general outreach efforts on p. 9. Other ar-
ticles of interest include: the FY 2008 audit of NSF’s financial statements on p.
14; audits of four grantees that failed to adequately monitor their subrecipients
on p. 15; our role in a multi-agency investigation that resulted in a $7.6 million
settlement on p. 29; and five cases in which employees of awardee institutions
violated positions of trust on p. 30.



                                                                    Allison C. Lerner

                                                                  Inspector General

[Blank Page]
                                                    Report Highlights
•		 Allison C. Lerner assumed the duties of Inspector General (IG)
    of the National Science Foundation (NSF) in April 2009. Ms.
    Lerner previously served as Counsel to the Inspector General
    at the Department of Commerce, where she began her federal
    career in 1991. (Page 7)

•		 The NSF OIG initiated oversight of $3 billion in stimulus funds
    appropriated to the agency as part of the American Recovery
    and Reinvestment Act (ARRA). OIG is taking a two-stage
    approach to its ARRA responsibilities: 1) a proactive phase for
    risk mitigation activities that can be accomplished in the near
    term to help the agency and OIG prevent problems and prepare
    for more substantive work and; 2) an operational phase during
    which audits, investigations, and other types of reviews are
    conducted. (Page 7)

•		 An audit of NSF’s FY 2008 financial statements conducted by
    an independent CPA firm under a contract with OIG resulted in
    the agency again receiving an unqualified opinion. However,
    the FY 2008 Management Letter identified seven findings,
    some of which included elements of prior years’ findings related
    to NSF’s operations and financial reporting controls. (Page 14)

•		 Four audits of non-profit organizations with more than $14
    million of subawards, found a consistent pattern of inadequate
    subrecipient oversight. Awardees that pass through federal
    funds to subrecipients are required to monitor them by methods
    such as reviewing financial and performance reports, perform-
    ing site visits, or otherwise ensuring they have adequate
    financial systems to manage federal funds. (Page 15)

•		 NSF sustained $3.3 million of $4.2 million in costs questioned
    by auditors during a 2008 audit of two NSF awards to the
    School District of Philadelphia. In their report, auditors issued
    a disclaimer of opinion as they could not determine whether
    approximately $13 million of direct and associated indirect
    costs and $3.2 million of claimed cost sharing were allowable,
    allocable, and reasonable. (Page 24)

•		 OIG participated in a multi-agency investigation of allegations
    against a Connecticut university, resulting in a civil settlement
    under which the university paid $7.6 million to the federal
    government. NSF’s share of the settlement was $438,821.
    (Page 29)




                                                                        5
Report Highlights




                     •		 In five separate cases, employees of awardee institutions abused positions
                         of trust for personal gain. Four of the cases involved using grant and univer-
                         sity funds for personal purchases, and in the fifth, an awardee contracting
                         officer engaged in a kickback scheme. Such abuse violates federal as well
                         as state and local criminal laws. (Page 30)

                     •		 A graduate student who committed verbatim plagiarism and intellectual theft
                         when he published a paper derived from his graduate research and omitted
                         any reference to his U.S. advisor, was found by NSF to have committed
                         research misconduct, sent a letter of reprimand, and debarred for 5 years,
                         consistent with OIG’s recommendations. Because the actions were so
                         serious, and had a lasting, adverse effect on the U.S. advisor’s research
                         and the relationship between collaborating scientists, we considered the
                         student’s conduct to be egregious. (Page 43)




               6
	
                                 OIG Management Activities
Appointment of New IG
Allison C. Lerner assumed the duties of Inspector General (IG) of
the National Science Foundation (NSF) in April 2009, reporting to
the National Science Board and the Congress. Ms. Lerner previ-
ously served as Counsel to the Inspector General at the Depart-
ment of Commerce, a position through which she acted as the IG’s
principal legal advisor and managed the office’s staff attorneys and
legal services.                                                          NSF IG Allison Lerner

Ms. Lerner began her federal career in 1991, joining the Office of
Inspector General at Commerce as assistant counsel, and has
been a member of the senior executive service since 2005. During
her tenure at Commerce she also served as special assistant to
the IG, Deputy Assistant Inspector General for Auditing, and Acting
Assistant Inspector General for Auditing. Prior to joining the federal
government, she was an associate at the law firm of Foster, Lewis,
Langley, Gardner & Banack in San Antonio, Texas.

The President’s Council on Integrity and Efficiency (PCIE) has
honored Ms. Lerner with three awards for excellence: in 2001, for
her work reviewing the Department of Commerce’s management of
5,000 intra-agency and special agreements worth over $1 billion;
in 2002, for her assistance in a complex investigation of false
claims submitted under a financial award from the National Institute
of Standards and Technology; and in 2005, for her review of a
controversial Booz-Allen Hamilton study that recommended signifi-
cant structural changes to the National Oceanic and Atmospheric
Administration’s Office of Finance and Administrative Services.

Ms. Lerner received her law degree from the University of Texas
School of Law and a B.A. in liberal arts from the University of
Texas. She is admitted to the bar in both Texas and the District of
Columbia.

The American Recovery & Reinvestment Act

As part of the American Recovery and Reinvestment Act (ARRA)
signed into law on February 18, the National Science Foundation
received $3 billion in stimulus funding and the Office of Inspector
                                                                          HIGHLIGHTS
General received $2 million to provide oversight of NSF’s funds.
                                                                          Appointment of New IG     7
As this is written, NSF is currently working with OSTP, OMB, and
                                                                          The American Recover &
Congress on its spending plan, which is expected to be approved            Reinvestment Act         7
sometime in April.                                                        Congressional Testimony   8
                                                                          Legal Matters             9
While waiting to review NSF’s final plan, OIG is taking a two-stage       Outreach                  9
approach to its ARRA responsibilities: 1) a proactive phase for risk
mitigation activities that can be accomplished in the near term to       7

OIG Management




                 help the agency and OIG prevent problems and prepare for more substantive
                 work and; 2) an operational phase during which audits, investigations, and other
                 types of reviews are conducted. Since the Recovery Act was passed, OIG staff
                 have taken the following proactive steps:

                 •	 Staffed and organized an internal working group to coordinate OIG Recov-
                    ery Act planning.
                 •	 Participated on five NSF ARRA implementation teams that are engaged in
                    planning how the agency will execute its plans.
                 •	 Developed audit and investigative plans for both proactive and operational
                    phases.
                 •	 Shared informational resources with the agency concerning the manage-
                    ment of grant fraud risk.
                 •	 Reviewed past audit and investigative findings for their relevance to Recov-
                    ery Act implementation efforts.
                 •	 Re-evaluated OIG staffing needs and applied to OPM for additional hiring
                    authority.
                 •	 Begun filing monthly reports on-line about its major actions and expendi-
                    tures related to the Recovery Act.

                 In addition, our office has joined a working group of OIGs from agencies that
                 are receiving Recovery Act funds and holding regular meetings with the new
                 Recovery Accountability and Transparency Board to coordinate their activities
                 and share best practices. The purpose of the Board is to coordinate and
                 conduct oversight of Recovery Act funds to prevent fraud, waste and abuse.

                 Congressional Testimony
                 Thomas C. Cross, NSF’s Interim Inspector General testified before the House
                 Committee on Science and Technology, Subcommittee on Investigations and
                 Oversight on March 19, 2009 to discuss how the OIG intends to perform its
                 oversight responsibilities under the Recovery Act. Mr. Cross discussed OIG’s
                 plan for monitoring NSF’s Recovery Act spending, challenges facing NSF with
                 regard to the Recovery Act, and OIG efforts to address its own staffing needs
                 to perform Recovery Act work.

                 Mr. Cross stated that the office will pursue a strategy aimed not only at safe-
                 guarding Recovery Act funds from waste, fraud and abuse, but also at helping
                 assess whether those funds produce the results sought by the Act. Based
                 on past OIG work, Mr. Cross noted that major research equipment (MREFC)
                 expenditures, NSF’s post-award monitoring, and the agency’s management of
                 contracts as areas that OIG considers high-risk for Recovery Act purposes. He
                 concluded his testimony by commenting on OIG staffing, saying that options for
                 hiring temporary staff were being explored, while the office sought approval to
                 add additional auditors and investigators in 2010. The full text of his testimony
                 is available on our website at: http://www.nsf.gov/oig/oignews.jsp




            8

                                                           OIG Semiannual Report   March 2009




Legal Matters
As reported in past Semiannual Reports, the 2007 NSF Reauthorization Act,
enacted in August 2007, amended the PFCRA to bring the National Science
Foundation within the statute’s coverage. This amendment was supported by
both OIG and NSF because it gave the agency authority to use administrative
procedures to recover losses resulting from fraud cases under $150,000 when
the Department of Justice declines to prosecute. On December 30, 2008, NSF
published proposed PFCRA regulations in the Federal Register for comment.
Once final regulations are issued, NSF will be able to use this powerful tool
to recover funds diverted due to fraud and ensure that appropriated funding
serves its intended purpose.

Outreach
During this semiannual period, the Outreach efforts of our office were chal-
lenged as a result of both an increase in their audit and investigative workload
and budgetary constraints imposed as the result of a continuing resolution.
As a result of these challenges, we had less of an opportunity to bring our
message to the research community by means of presentations at universities,
societies, and other organizations. This is a significant issue in light of the
Recovery Act’s proactive emphasis, and its enactment of additional outreach
and training requirements to prevent or mitigate fraud, waste, and abuse related
to Recovery Act funds. Recognizing the importance of meaningful communica-
tions with stakeholders such as the Congress, the National Science Board,
and the National Science Foundation as well as with major institutions, national
and international research organizations, and other federal agencies and their
OIGs, essential outreach activities continued during this period.

Our continuing efforts to encourage the research community to embrace
compliance-based programs at every research institution proceeded at a
reduced number of outreach events targeting university officials, research
administrators, principal investigators, students and post-docs, and interna-
tional funding agencies. We highlighted the value of such programs and the
significant risks that are assumed when universities and other members of the
research community fail to develop and implement such programs. In a num-
ber of OIG presentations that were appreciated by our audiences, we included
case studies of recent prosecutions that have resulted in prison sentences for
those found guilty of committing fraud. We also increased access to our out-
reach material through a redesign of our webpage, making available updated
brochures, presentations, and posters for the workplace.

Working with the International Community

During this semiannual period, Inspector General Boesz participated in
international forums addressing the prevention of, and response to research
misconduct. In October, Dr. Boesz attended a conference in Beijing sponsored
by China’s Ministry of Science and Technology, and visited China’s National



                                                                                   9

OIG Management


                 Natural Science Foundation as well as NSF’s Beijing office. On November
                 17-18, she and the Associate Inspector General for Investigations, Dr. Peggy
                 Fischer, attended a workshop hosted by the European Science Foundation,
                 where Dr. Fischer presented on Investigating Allegations of Research Miscon-
                 duct, and Dr. Boesz reported on the activities of the Global Science Forum.

                 Prior to her retirement in January, Dr. Boesz served as the Co-Chair of the
                 Coordinating Committee for International Research Misconduct Investigations
                 of the Global Science Forum (GSF). This committee comprises 30 nominated
                 participants from 25 countries and international organizations. It held three
                 meetings in Washington, D.C., Paris, and Vienna. The IG, together with the
                 AIG for Investigations, played a significant role in the drafting of the Coordinat-
                 ing Committee’s white paper entitled “Global Science Forum Best Practices for
                 Ensuring Scientific Integrity and Preventing Misconduct,” a report that the GSF
                 Chair called “one of the best pieces of work the Forum has ever done.” This
                 important document will provide a basis for Research Integrity Frameworks in
                 international collaborations.

                 In addition, other OIG staff participated in numerous meetings and presenta-
                 tions to further the Inspector General’s international efforts. Members met with
                 and briefed delegations from the European Science Foundation, the Science
                 Foundation of Ireland, Health-Canada, and the Research Council of the United
                 Kingdom. In each forum, OIG personnel explained our processes and oversight
                 procedures, and answered questions from our international audiences.

                 Working with the Research Community

                 OIG Staff Participate in Conferences. From among the wide range of
                 workshops, conferences, and other events sponsored by institutions and as-
                 sociations of research professionals that invited our participation, we sought to
                 identify those that offered the greatest opportunity to connect with the research
                 community as a whole. We presented to the Society of Research Administra-
                 tors International and addressed the national meeting of National Council of
                 University Research Administrators. We conducted an outreach event at the
                 American Association for the Advancement of Science (AAAS) that we hope
                 will facilitate closer cooperation in the future. We met with editors from AAAS’s
                 Nature Magazine and discussed ways to address matters of mutual concern.
                 Additional community-wide outreach events included two NSF Regional Grants
                 Workshops and a presentation to NSF’s Ethics Education in Science and En-
                 gineering Awardees. Through these interactions with the research community,
                 we sought to inform key groups on best practices that have been identified and
                 to encourage the development of systems to detect, resolve, and prevent the
                 recurrence of misconduct or mismanagement within the research enterprise.

                 OIG Staff Present at Universities. We continue to receive many invitations to
                 give presentations to, train, or consult with university officers and other orga-
                 nizations associated with the research enterprise. We addressed numerous
                 groups that were involved in either applying for or administering NSF awards,
                 performing supported research, or conducting university-level inquiries into
                 allegations of research misconduct. During this semiannual period we made
                 nine such presentations at universities. During each, we shared best practices
                 on the enhancement of compliance and ethics programs that can contribute

           10

                                                               OIG Semiannual Report    March 2009


to decreasing the recurrences of research misconduct. We also explained
relevant rules, addressed risk factors of which they should be aware, and
shared case studies and lessons learned during our audits and investigations.
Our staff answered questions and provided fact sheets, brochures, posters, and
other educational materials.

Working with the Federal Community

During this semiannual period, NSF OIG personnel inter-
acted with their counterparts in the federal community,
including other federal OIGs, in a number of capacities.
Our experience in grant fraud investigations enables us to
take an active role in leading federal efforts to limit such
misconduct. As in the past, we participated in numerous
events and initiatives established to coordinate the fight
against grant fraud. These included the National Procure-
ment Fraud Working Group and the Grant Fraud Subcom-
mittee of the Department of DOJ’s National Procurement
Fraud Task Force, in which we contributed significantly to
the latter’s publication of “A Guide to Grant Oversight and           CIGIE Chair Phyllis Fong speaks
Best Practices for Combating Grant Fraud.”1                             at Dr. Boesz’ retirement event.


We worked with other federal agencies and Offices of Inspectors General on a
variety of matters. These included meetings and events in conjunction with the
Office of Management and Budget, the Department of Justice, the Government
Accountability Office, the Department of Agriculture, and the Department of
Homeland Security. Such professional interactions were often sought to ad-
dress requests for particular assistance, but also occurred within the context of
the Council of Counsels to Inspectors General and various committees of the
Council of the Inspectors General on Integrity and Efficiency (CIGIE).

The Interim Inspector General continued in the role of the previous NSF IG as
the Chair of the CIGIE Misconduct in Research Working Group. The Working
Group coordinates efforts within the IG community to identify, investigate, and
prevent research misconduct. Additionally, we continued to participate in the
Federal Audit Executive Council and the Financial Statement Audit Network.

Finally, we provided requested information to committees in both the Senate
and House, including the Senate Finance Committee, the House Committee on
Oversight and Government Reform, the House Science and Technology Com-
mittee, and the House Rules Committee, on NSF management issues and our
plans for implementing the Recovery Act.

Working with NSF

During this semiannual period, we routinely made presentations to the
National Science Board to keep the leadership of NSF informed of matters of
importance for the oversight of agency operations. We have also continued our
extensive outreach to NSF. The goal of our outreach mission is to constantly
improve communications between OIG and agency personnel. Our NSF liaison

1
    http://www.usdoj.gov/oig/special/s0902a/final.pdf.

                                                                                        11

OIG Management


                 program has built on our prior success in establishing and maintaining effective
                 communication and professional relationships with the individual directorates
                 and offices within NSF. Our liaison teams (generally one investigator and one
                 auditor) served as valuable conduits of information between our offices in the
                 course of approximately 25 liaison events.

                 In addition, we gave briefings at 14 NSF orientations for new employees on
                 the mission and role of OIG and how they can bring matters of concern to our
                 attention. We also continued to participate in joint activities with NSF, including
                 four Program Management Seminars. These sessions provided OIG staff an
                 opportunity to develop personal and professional relationships with their NSF
                 colleagues and learn about new developments within NSF programs, while
                 educating our colleagues about the activities of NSF OIG. We participated in
                 the NSF “Green Day” activities and in the NSF “Got Green” initiative. Our staff
                 provided input for the design of a new NSF intranet and for a new NSF training
                 module on the Notification and Federal Employee Anti-Discrimination and
                 Retaliation (NO FEAR) Act. We also continued our internal media communica-
                 tions within NSF, whereby we educate NSF staff about OIG in general and our
                 Hotline in particular.

                 Finally, during this semiannual period we have conducted extensive interaction
                 with NSF concerning the development of NSF plans and processes relating
                 to the Recovery Act. Members of our staff have been invited to participate in
                 teams assembled by NSF to address Recovery Act pre-award, budget, post-
                 award, contracting, and reporting issues. We look forward to working collab-
                 oratively with NSF to contribute to the successful completion of these tasks.




           12

                                                   Audits & Reviews
In this semiannual period the Office of Audit successfully passed its
triennial external peer review, completed the required audit of NSF’s
fiscal year 2008 financial statements, and addressed anonymous
concerns about a Directorate’s supplemental funding research
awards. In addition, we completed seven audits of awardee
institutions, in which the need for better subaward monitoring was
a common finding. We also reviewed 205 annual single audits of
NSF awardees that reported a total of 249 findings. Finally, we
worked with NSF to resolve findings and recommendations on
8 audits completed in prior periods, including one in which NSF
sustained $3.3 million of questioned costs.

Office of Audit Quality Control System Passes External
Peer Review

During this semiannual period, the Office of Audit successfully
passed external peer review for the year ended September 30,
2008. The review was conducted by the National Credit Union
Administration (NCUA) Inspector General, who found that the
Office’s quality control system provided reasonable assurance
of conformance with auditing standards promulgated by the U.S.
Comptroller General, and issued a “clean” opinion.

Audit organizations performing audits and attestation engagements
in accordance with Government Auditing Standards (GAS) must
undergo triennial external peer review by reviewers independent of
the audit organization. The reviews are conducted in accordance
with guidelines established by a Council of Inspectors General and
focus on the audit organization’s quality control system. A quality
control system includes the office’s organizational structure and its
policies and procedures that help ensure it complies with GAS.

The review team examined six audit reports, including reviewing the
supporting workpaper documents to assess the quality of the audit
planning, execution, reporting and supervision. The review team
also evaluated the adequacy of the Office of Audit’s established
policies and procedures and interviewed a random sample of staff
to determine their level of knowledge of the requirements. A copy
of the final peer review report is posted on the OIG website.
                                                                         HIGHLIGHTS
                                                                         Significant Internal
                                                                          Reports                14
                                                                         Significant Grant and
                                                                          Contract Audits        15
                                                                         A-133 Audits            20
                                                                         Audit Resolution        24
                                                                         Work in Progress        27

                                                                        13
Audits & Reviews


                   Significant Internal Reports

                   FY 2008 Independent Auditors Issue Unqualified Opinion; Manage-
                   ment Letter Cites Need for Improved Contract Oversight, Grant
                   Processing, and Accounting for Property

                   An audit of NSF’s Fiscal Year (FY) 2008 financial statements resulted in the
                   agency again receiving an unqualified opinion. Clifton Gunderson LLP con-
                   ducted this audit under a contract with OIG.

                   However, the FY 2008 Management Letter identified seven findings, some of
                   which included elements of prior years’ findings related to NSF’s operations
                   and financial reporting controls. The Management Letter reported continuing
                   weaknesses in NSF’s grants processing and documentation. For example,
                   the auditors repeated their prior recommendation that NSF revise its Site Visit
                   Review Guide for assessing institutions with high risk awards to provide specific
                   guidance for reviewers to document their review steps and the results. The
                   auditors also recommended that NSF: 1) prevent future awards to grantees that
                   have not provided final cost sharing certifications; 2) review supporting source
                   documentation before approving payments to problem institutions placed on
                   special payments; and 3) specify deadlines for NSF staff to complete the draft
                   and final reports on its reviews of NSF’s large facilities and obtain corrective
                   action plans.

                   Regarding contract monitoring, the auditors recommended that NSF expand
                   the scope of its quarterly expenditure reviews of NSF’s high risk contractors to
                   include verifying that the amounts recorded in the contractor’s general ledger
                   represent costs that are allowable and benefitted the NSF contract. The
                   auditors also recommended that NSF: 1) develop policies and procedures for
                   contract close-out and for requiring contracting officers to ensure that contrac-
                   tors submit incurred cost reports (which are essential to ensuring that NSF’s
                   contracts are administered properly) and; 2) obtain cost incurred audits of its
                   largest contractor to verify and validate costs charged to the contract.

                   Finally, the auditors reported a finding related to NSF’s reporting of property,
                   plant, and equipment (PP&E), involving late transfers from the Construction in
                   Progress account resulting in understating the capitalized real property account.
                   Auditors also expressed concern about the lack of an integrated PP&E system
                   and annual reconciliations of physical inventory to the general ledger that could
                   result in errors in the agency’s property accounts. The auditors recommended
                   that NSF: more closely monitor transfers to the real property account; ensure
                   that NSF’s planned new property system is integrated with the financial ac-
                   counting system; and enforce the requirement for a complete annual physical
                   inventory of real property, including reconciling the property inventory listing to
                   the general ledger.

                   NSF management generally concurred with the Management Letter and, in
                   some instances, NSF is developing alternative approaches to resolve the
                   findings. The FY 2009 financial statement audit will evaluate NSF’s actions
                   in response to the findings and recommendations to determine whether these
                   issues have been corrected.

             14

                                                             OIG Semiannual Report    March 2009


Approval Needed To Deviate from Merit Review Process

An OIG audit found that while NSF’s Computer and Information Science and
Engineering (CISE) Directorate appeared to have had a proper basis to request
a deviation from NSF’s standard merit review process to make supplemental
awards for the Measurement and Signatures Intelligence (MASINT) Program, it
did not obtain the required Director’s approval for the deviation. The audit was
conducted in response to concerns raised by an anonymous source. CISE also
did not adequately document and communicate the reasons for the deviation
from standard policies and procedures to the NSF grant staff responsible for
making the awards. Consequently, concerns on the part of grant officials about
the lack of merit review led to funding delays and additional investigations
and reviews. Further, the lack of approval and documentation created the
appearance that one of NSF’s most important and fundamental quality control
processes was being undermined and circumvented.

OIG recommended that CISE request, on a program-wide basis, the required
authorization from the NSF Director to waive the merit review of all MASINT pro-
posals for supplemental awards for out-year funding and document the waiver in
NSF’s electronic grants file, in accordance with NSF’s policy, as well as ensure
that each existing affected MASINT electronic file contain all of the required
documentation. Additionally, we recommended that NSF issue a memorandum
to all NSF staff reminding them of the requirement for merit review of supple-
mental award proposals and provide cross-references in the agency’s Proposal
and Award Manual to link these requirements for supplemental awards to its
general merit review policies. NSF concurred with our findings and has com-
pleted corrective actions implementing all of the report’s recommendations.


Significant Grant and Contract Audits
Among audits of NSF awardees completed this semiannual period we found
that four grantees had significant internal control weaknesses related to monitor-
ing subawards, including in one case, foreign subawardees who charged $6.7
million of costs in one year. OIG auditors also found that a major research
university lacked controls to verify the propriety of $12.8 million of labor effort
charged to NSF awards, and an NSF contractor audited for the third time contin-
ued to violate Cost Accounting Standards and may have to reimburse NSF for
an undetermined amount of additional questioned costs. Each of these audits is
discussed separately below.

Audits of Four Non-Profit Grantees Find Lack of Oversight of
Subrecipients

Awardees that pass through federal funds to subrecipients are required to
monitor them by methods such as reviewing financial and performance reports,
performing site visits, or otherwise ensuring they have adequate financial
systems to manage federal funds. However in four audits of non-profit organiza-
tions with more than $14 million of subawards, we found a consistent pattern of
inadequate subrecipient oversight. Without adequate controls over subrecipient
monitoring, NSF risks paying substantial subaward costs in the future without
adequate assurance that these payments are permissible.
                                                                                      15

Audits & Reviews


                    Civilian Research & Development Foundation. At NSF’s request, the
                    OIG audited $14.8 million of FY 2006 costs claimed by the Civilian Research
                    & Development Foundation (CRDF) and found that CRDF lacked adequate
                    administrative and financial controls for monitoring its foreign subrecipients and
                    managing its indirect cost allocation practices to ensure proper use of federal
                    funds. CRDF is a nonprofit organization authorized by the U.S. Congress under
                    the Freedom Support Act (Public Law 102-511) and was established in 1995 to
                    provide cooperative research and development opportunities to scientists and
                    engineers in the independent states of the former Soviet Union.

                    The audit disclosed significant internal control weaknesses in CRDF processes
                    to oversee hundreds of foreign subrecipients that could increase the risk for
                    fraud and unallowable costs being charged to the NSF award. CRDF payments
                    to foreign subrecipients accounted for approximately $6.7 million in direct costs,
                    representing 71 percent of CRDF’s total direct costs charged to NSF award in
                    FY 2006.

                    Specifically, CRDF failed to consistently follow its policies related to Individual
                    Financial Support payments to its foreign principal investigators involved in
                    CRDF research programs. Our review disclosed that about 40 percent of the
                    almost $3 million in FY 2006 support payments were not adequately supported
                    by labor effort reports as required by CRDF procedures. Also, CRDF: (a) did
                    not adequately ensure that required annual audits of its four subrecipient grant-
                    making organizations established in the former Soviet Union were consistently
                    conducted; (b) made payments to these organizations without proper verification
                    and review of necessary supporting documentation; and (c) improperly allocated
                    administrative service contract costs for these four organizations to the NSF
                    award on a subjective basis. These weaknesses create substantial risk for
                    potential fraudulent and unallowable costs to be charged to the NSF grant.

                    In addition, we determined that CRDF did not establish guidance to ensure that
                    its employees properly identified and excluded unallowable and unallocable
                    costs from its indirect costs pool. As a result, CRDF charged $376,199 of
                    questioned costs to the indirect cost account, including over $297,000 to engage
                    in unallowable fundraising, public relations, and promotional activities. This
                    resulted in CRDF’s FY 2006 indirect cost rate being overstated by 2.04 percent
                    and $191,696 of indirect costs being overcharged to the NSF award. Through
                    FY 2009, we estimate that $1,153,497 of federal funds could be put to better use
                    by applying the lower indirect rate to all CRDF federal awards.

                    In response to our recommendations, CRDF indicated that it has or is in the
                    process of taking corrective actions to improve its oversight of its foreign sub-
                    recipients. But CRDF disagreed with the questioned costs because it believed
                    such costs were allowable because of either longstanding CRDF practice or
                    inclusion of the costs in its Business Plan submitted to NSF. However, the
                    legal binding Funding Arrangement between NSF and CRDF clearly states that
                    grant costs allowability will be based on the Federal cost principles. Therefore,
                    we continue to disagree with CRDF on the allowability of these costs and
                    reaffirm our audit conclusions and recommendations. NSF stated that without
                    first coordinating with CRDF, it lacked sufficient information on which to take a
                    position on the report findings and recommendations. Therefore, we requested
                    that NSF provide its management decision and planned corrective actions to
                    address the report recommendations within 120 days of the report’s issuance.
             16
	
                                                              OIG Semiannual Report     March 2009


Exploratorium. An OIG audit of Exploratorium, a non-profit
educational organization and science museum, identified three
significant compliance and internal control deficiencies resulting
in $340,204 in questioned costs. Two of the three deficiencies
were repeat findings that Exploratorium’s external auditors had
cited in its 2003 Single audit report and management letter.

The auditors found that Exploratorium performed limited sub-
award monitoring on $6 million of subaward costs (54 percent
of the total costs claimed on the awards), a condition noted
previously in its 2003 and 2007 OMB Circular A-133 audit report
management letters. This occurred because Exploratorium relies
exclusively on the representations made by its subawardees to
ensure costs are reasonable, allowable, and allocable rather than
performing its own independent verification of those assertions
using a risk-based approach to determine the level of monitoring
necessary.

In the case of one subawardee, the auditors questioned $227,109          A child inspects the Wall of
(representing 25 percent of the sample tested) because it used es-          Lights exhibit at the San
timated rather than actual costs for a variety of expenses including       Francisco  Exploratorium.
salaries and wages, consultants, travel, and indirect costs. They
also questioned $7,676 in unsupported subaward costs for consul-
tant, material, travel and other expenses; and $82,919 because Exploratorium
did not provide adequate support for other direct costs. Finally, Exploratorium
overstated project costs by $22,500 because program income it received during
the term of the award was not used to offset NSF-funded costs or added to the
project in furtherance of its objectives, as required.

The auditors recommended that Exploratorium revise its subaward monitoring
procedures to include a proactive review of its subawardee’s OMB Circular
A-133 report findings and a formal risk assessment process for determining the
level of monitoring necessary. Recommendations were also made to revise its
procedures to properly account for program income, and comply with existing
procedures to support costs claimed with sufficient supporting documentation.
Exploratorium concurred with all of the report findings and indicated that it was
taking corrective action.

Education Development Corporation. OIG audited four awards with $14.2
million in costs claimed by Education Development Center, Inc. (EDC), an
international non-profit educational research organization, and identified three
compliance and internal control deficiencies in EDC’s financial management that
resulted in $3,346 in questioned costs.

EDC did not perform adequate fiscal monitoring on $1.3 million, or 9 percent, of
the subaward costs it charged to the NSF awards, to ensure that subawardee
expenditures were allowable, allocable, and reasonable. This occurred because
EDC does not have a formal plan for monitoring subawardees, nor does it
attempt to verify the adequacy of the subawardees’ controls to ensure the costs
they report are valid. EDC manages 335 projects in 50 countries, including 35
other NSF awards. Without adequate routine subaward monitoring EDC cannot
ensure that the $1.3 million of subaward costs charged to the four audited NSF

                                                                                        17
Audits & Reviews


                   awards or to any other NSF awards are valid and allowable. In addition, EDC
                   did not provide support for $3,346 in NSF funded meal costs and did not evalu-
                   ate the reasonableness of meal costs associated with participant events.

                   We recommended that EDC develop and implement a formal subaward monitor-
                   ing plan that includes performing a risk assessment to determine the level of
                   monitoring needed for each subaward; ensure that claimed costs for meals
                   are supported with itemized receipts; and revise its policies and procedures to
                   document how reasonableness of meal costs is determined. EDC concurred
                   with all of the report findings and indicated that it was taking corrective action.

                   American Institute of Physics. An audit of a $2.3 million award made to the
                   American Institute of Physics (AIP) for scientific media production services
                   found significant internal control deficiencies in its subcontract management.
                   The audit found that AIP’s procurement practices were not in accordance with
                   federal requirements because it did not always: 1) obtain adequate cost and
                   pricing data prior to awarding its subcontracts; 2) identify the total price and type
                   of award (fixed-price or cost reimbursable); or 3) include clauses with provisions
                   for termination, access to records or record retention in its subcontracts. In
                   addition, AIP did not adequately monitor its subcontracts in a timely manner.
                   Consequently, there is no assurance that AIP’s and NSF’s interests were ad-
                   equately protected under the subcontract agreements or that the subcontractors’
                   invoiced amounts were accurate, reasonable and in support of the NSF award.

                   AIP awarded three subcontracts for production, marketing, and distribution
                   services and for scientific news stories which represented thirty-nine percent
                   of the total costs claimed on the award. In total, the audit questioned $77,658
                   subcontract costs representing 9.7 percent of the total $798,528 claimed in
                   subcontract costs. Of the questioned costs, $52,658 related to income due
                   from a subcontractor that AIP had terminated due to poor performance. The
                   remaining $25,000 of the questioned costs related to invoices paid to another
                   subcontractor for products that were not completed in accordance with the
                   contract. Finally, AIP did not meet either its original or revised television
                   subscription sales milestones of $317,500 and $255,700 respectively for 2006.
                   Actual subscription sales for 2006 were $81,000, thereby increasing the pos-
                   sibility that the project would not become self-sustaining as originally proposed
                   by the end of the NSF award period.

                   We recommended that, for all future subcontracts under NSF awards, AIP
                   develop and implement policies and procedures to obtain adequate cost and
                   pricing data; specify the type of subcontracts awarded; and include all federally-
                   required clauses in subcontracts. We also recommended that AIP establish
                   adequate subcontractor monitoring procedures and work with its subcontractors
                   to obtain additional television subscriptions. AIP generally disagreed with the
                   recommendations and many of the findings presented by the auditors. The
                   report was provided to the Division of Institution and Award Support for resolu-
                   tion.




             18

                                                                                   OIG Semiannual Report   March 2009


University of Arizona Not Using Suitable Means of Validating Labor
Charged to NSF Grants

Officials at the University of Arizona approved labor charges to federal awards
without having knowledge of the work performed by its employees, as required
by federal regulations, according to an OIG audit of Arizona’s effort reporting
system. The report states that department administrative officials approved
770 of 780 effort reports amounting to $709,520 in labor costs for a sample of
30 employees without having a basis to know whether the work was actually
performed as shown on the effort reports. The significant nature of this control
weakness raises concerns about the reasonableness and reliability of the $12.8
million of FY 2007 labor charged to NSF grants or the $94.4 million in labor
charges to other federal awards.

Administrative officials relied on employee time sheets as a means to validate
labor effort charged to NSF awards despite the fact that in most cases the time
cards did not assign the employee’s hours to specific projects or activities.
Furthermore, the officials using these timesheets approved labor effort every
two weeks for as many as 400 employees in their individual departments.
Federal regulations require that university labor activities charged to federal
awards must be confirmed by either the employee conducting the work or by
an official that is in a position to know whether the work was performed. In
addition, the audit identified internal control weaknesses that allowed faculty to
exceed NSF summer salary limitations, resulting in $16,584 in overcharges;2
and cited Arizona for failing to conduct independent evaluations of its labor
reporting system as required by federal regulations.

These weaknesses occurred because prior to FY 2008, Arizona did not
place sufficient emphasis on effort reporting. Specifically, Arizona had not:
1) established sufficient written guidance for all effort reporting processes to
ensure full compliance with Federal requirements, 2) performed adequate
monitoring to ensure all Arizona departments complied with established effort
reporting policies and procedures, and 3) ensured cognizant personnel received
adequate training on their effort reporting responsibilities. Arizona concurred
with the findings and recommendations and implemented an interim system to
address many of the issues in our report. A new electronic financial manage-
ment system is scheduled to be operational in calendar year 2010 at which time
Arizona will implement final corrective actions.

CAS Violations Found Again in Third Audit of NSF Contractor

An audit of four contracts with $2.9 million in costs billed to NSF in 2004
revealed that Abt Associates, a for-profit research and consulting firm, may be
incorrectly recording $2.5 million in employee pension costs, resulting in over-
charging indirect costs to its government contracts. In addition, Abt changed its
method of accounting for indirect costs without prior government approval. In
both of these instances Abt did not comply with its disclosed accounting prac-
tices, which is a violation of federal Cost Accounting Standards (CAS). Both of
these accounting issues will be resolved by Abt’s federal cognizant contracting
agency, U.S. Agency for International Development (AID).

2
    NSF limits faculty summer pay to no more than two-ninths of academic salary.
                                                                                                           19

Audits & Reviews


                   The audit was the last in a series of three audits that the OIG contracted with
                   the Defense Contract Audit Agency (DCAA) to perform on costs that Abt
                   claimed on NSF contracts for 2002 through 2004.3 DCAA issued a qualified
                   opinion on Abt’s FY 2004 costs claimed because the CAS violations may result
                   in questioned indirect costs that cannot be determined until the accounting
                   change and employee pension cost issues are resolved.

                   The report recommends that NSF coordinate with AID to resolve Abt’s CAS
                   noncompliance issues and determine the amount of unallowable costs charged
                   to NSF contracts. We forwarded the audit report to NSF’s Division of Acquisition
                   and Cooperative Support to resolve any questioned costs and ensure corrective
                   actions are taken.

                   Bermuda Institute of Ocean Sciences Found Financially Capable
                   for Performing Government Grants

                   An audit of the financial capability of the Bermuda Institute of Ocean Sciences
                   (BIOS), a non-profit organization providing ship operations for research vessels
                   and Atlantic Ocean current studies, found that the grantee’s financial condition
                   is acceptable for performing on government grants in the current and near
                   term through October 31, 2009. The audit evaluated BIOS’ audited financial
                   statements and current cash flow forecasts, net worth, assets, liabilities and key
                   financial ratios.

                   BIOS recently underwent a major expansion with the purchase of a new
                   research vessel, The Atlantic Explorer, and a building program to enhance its
                   research capabilities and establish a platform for oceanographic research in
                   the Mid-Atlantic. BIOS’ expansion resulted in increased debt, however long-
                   term liabilities are decreasing and most key financial ratios indicate positive
                   trends. We forwarded a copy of the audit report to NSF’s Division of Institution
                   and Award Support and suggested NSF monitor BIOS’ future annual financial
                   statements and financial condition.



                   A-133 Audits

                   Single Audits Identify Substantial Lack of Controls over Federal
                   Funds and Noncompliance with Federal Requirements

                   OMB Circular A-133 provides audit requirements for state and local govern-
                   ments, colleges and universities, and non-profit organizations receiving federal
                   awards. Under this Circular, covered entities that expend $500,000 or more
                   a year in federal awards are required to obtain an annual organization-wide
                   audit that includes the entity’s financial statements and compliance with federal
                   award requirements. Non-federal auditors, such as public accounting firms and
                   state auditors, conduct these single audits. The OIG reviews the resulting audit
                   reports for findings and questioned costs related to NSF awards, and to ensure
                   that the reports comply with the requirements of OMB Circular A-133.

                   3
                    We reported on costs claimed in 2002 by Abt Associates in the September 2007 Semiannual Report, p. 16
                   and reported on 2003 costs in the September 2008 Semiannual Report, p. 18.

             20

                                                                                OIG Semiannual Report        March 2009


For the 205 audit reports reviewed this period, covering NSF expenditures of
more than $5 billion during audit years 2005 through 2007, the auditors issued
seven qualified or disclaimers of opinion on the financial statements and 20
adverse or qualified opinions on the awardees’ compliance with federal grant
requirements. NSF is the cognizant or oversight agency for audit4 for six of
the awardees which received less than unqualified opinions, and therefore
has responsibility to coordinate resolution of the audit findings on behalf of the
affected federal agencies.

Of the 205 reports, 96 reports disclosed findings for the year under audit at a
variety of NSF awardees, including major universities, school districts, and non-
profit organizations. Auditors identified 160 instances where awardees failed to
comply with federal requirements, 33 of which resulted in more than $1.8 million
in questioned award costs and nearly $350,000 in cost-sharing shortfalls for
NSF awards. Auditors also identified 87 instances where inadequate internal
controls could lead to future instances of noncompliance.

The auditors identified material weaknesses and/or significant deficiencies in 68
reports, indicating substantial concerns about the awardees’ ability to manage
NSF funds. The auditors reported the following examples of awardees’ lack of
internal controls and noncompliance with federal requirements:

•		 untimely and/or incorrect reporting of time and effort;
•		 inadequate support for salary/wages, equipment, travel, and indirect costs
    charged to awards;
•		 inadequate monitoring of subrecipients;
•		 inability to prepare the financial statements;
•		 inadequate support for participant support costs and/or unauthorized move-
    ment of funds out of the participant support budget category;
•		 procurement systems that fail to properly ensure competition and/or monitor
    to prevent procurement from suspended or debarred parties;
•		 failure to submit financial and/or progress reports on time; and
•		 inability to meet cost sharing commitments.

We also examined 103 management letters accompanying the A-133 audit
reports. Auditors issue these letters to identify internal control deficiencies that
are not significant enough to include in the audit report, but which could become
more serious over time if not addressed. The letters disclosed a total of 97
deficiencies that could affect NSF awards in areas such as tracking, managing,
and accounting for NSF costs and segregation of duties – control processes
that are essential to ensuring stewardship of NSF funds and to prevent fraud
and abuse.

We provided the results of each audit report to NSF and, where appropriate,
highlighted our concerns related to opinions or findings. In certain instances,
such as reports which contained findings repeated for three or more consecu-
tive years and/or reports which identified $100,000 or more in questioned costs

4
 The “cognizant or oversight agency for audit” is defined as the federal agency which provided the largest
amount of direct funding to an awardee. On a 5-year cycle, OMB assigns a cognizant agency for audit to
awardees who expend $50 million or more in federal funds in a year. On an annual basis, OMB assigns an
oversight agency for audit to awardees who expend less than $50 million in federal funds in a year.


                                                                                                             21

Audits & Reviews


                   to NSF awards, we requested that NSF coordinate with us during the audit
                   resolution process. Although A-133 does not require NSF to take action on
                   systemic findings when another agency is the cognizant or oversight agency for
                   audit, we believed it prudent to bring these issues to the attention of NSF offi-
                   cials and to monitor the actions taken by NSF to improve controls in place at the
                   awardee level. During this reporting period, NSF completed resolution of nine
                   reports, and in each case opted not to contact the responsible agency during
                   resolution to coordinate efforts, but instead decided to rely on the awardees’
                   corrective action plans and future monitoring of subsequent reports to see
                   whether the findings are repeated.

                   While A-133 audits are, by design, “big picture” audits and are helpful to identify
                   systemic issues, they may not always include in-depth testing of NSF awards.
                   As part of our annual audit planning process, we use the results of the single
                   audits to identify awardees whose lack of controls pose a higher risk to NSF
                   funds and therefore may warrant OIG audits of specific NSF awards.

                   OIG Oversight Continues to Identify Timeliness and Quality
                   Problems with Single Audits

                   The audit findings contained in A-133 reports help to identify potential risks to
                   NSF awards and are useful to both NSF and the OIG in planning site visits,
                   post-award monitoring, and future audits. Because of the importance of A-133
                   reports to the process of overseeing awardees, the OIG reviews all reports
                   for which NSF was the cognizant or oversight agency for audit, and provides
                   guidance to awardees and auditors for the improvement of audit quality in future
                   reports. In addition, OIG returns reports that are deemed inadequate to the
                   awardees to work with the audit firms to take corrective action.

                   The Federal Audit Clearinghouse routinely makes available reports for audit
                   years 2007 and prior when the audit covers $50 million or more of expenditures
                   and/or the Data Collection Form5 identifies current or prior year findings.
                   However, due to resource limitations at the Clearinghouse, audit reports which
                   do not meet these criteria have not been provided to federal officials unless
                   requested. As part of our ongoing efforts to improve the quality of single
                   audits, we undertook a special review of reports under NSF oversight without
                   any identified audit findings. This “Oversight Project” review demonstrated
                   that reports without audit findings had similar timeliness and quality issues as
                   reports with audit findings.

                   Of the 108 audit reports6 we reviewed (including 79 reports in the “Oversight
                   Project”), 70 (65 percent) did not fully meet federal reporting requirements. For
                   example, we found that 26 reports (24 percent) were submitted late or the initial
                   audit reporting package was incomplete. Other findings include:

                   •		 For 34 reports (31 percent), the Schedule of Expenditures of Federal Awards
                       did not provide sufficient information to allow for identification of awards
                       received from non-federal “pass-through” entities;
                   •		 Twenty-seven reports (25 percent) contained findings which did not
                       adequately identify the federal award(s) to which the findings applied, the

                   5
                       Also known as Form SF-SAC, this form summarizes the results of the audit and is used by Federal agencies 

                   to quickly identify expenditures and findings which affect their awards.
	
             22
   6
                     The 108 reports were prepared by 65 different audit firms.

                                                              OIG Semiannual Report     March 2009


    criteria or regulatory requirement upon which the findings were based, and/
    or the cause and effect of the findings;
•		 Seventeen reports (16 percent) either did not include a corrective action plan
    or the plan was incomplete to address the audit findings;
•		 The Data Collection Forms included with 13 reporting packages (12 percent)
    failed to accurately reflect the results of the audit, including 1 instance where
    the form failed to identify the existence of audit findings;
•		 For 11 reviews (10 percent), we identified quality issues which we had
    previously identified in reviews for the same awardees and auditors.

The OIG identified each of the potential errors and contacted the auditors and
awardees, as appropriate, for explanations. In most cases, the auditors and
awardees either provided adequate explanations and/or additional information
to demonstrate compliance with federal reporting requirements, or the error did
not affect the results of the audit. However, we rejected three reports due to
substantial non-compliance with federal reporting requirements, including one
report which was reviewed under the “Oversight Project.” We issued a letter to
each auditor and awardee informing them of the results of our review and the
specific issues on which to work during future audits to improve the quality and
reliability of the report.

The uneven quality and potential problems raised by the reports sampled in the
Oversight Project suggests that more of these reports should have been routed
to federal officials for review. As a result of recent technological upgrades,
single audit reports for audit years 2008 and beyond will routinely be made
available to federal officials through the Federal Audit Clearinghouse. We will
continue to monitor the quality of all audits under NSF cognizance or oversight.

Improvements Continue in Response to National Single Audit
Sampling Project

We previously reported7 on the establishment of eight OMB workgroups to
improve the quality and oversight of single audits. OIG staff continues to
participate in the workgroup to revise the Council of the Inspectors General on
Integrity and Efficiency (CIGIE) standards for conducting quality control reviews
and desk reviews. During this period, several of the workgroups issued drafts to
the National Single Audit Coordinators (NSAC) of proposed changes to Circular
A-133 and related guidance. The proposed changes included the creation of
new training requirements for auditors who perform single audits, clarification of
definitions in OMB Circular A-133, and expansion of the guidance provided to
auditors in the Compliance Supplement. NSF OIG staff provided comments in
response to the drafts. The workgroup staff are currently consolidating NSAC
comments and expect to issue exposure drafts of the proposed changes for
public comment in the Federal Register during the next semiannual period.




7
    September 2008 Semiannual report, pp. 21-22.


                                                                                        23

Audits & Reviews


                   Audit Resolution
                   NSF Sustains $3.3 Million of Questioned Costs from the Disclaimer
                   of Opinion on the School District of Philadelphia

                   In September 2008,8 we reported that OIG auditors found the records sup-
                   porting two NSF awards to the School District of Philadelphia (SDP) to be
                   unauditable and therefore could not determine whether approximately $13
                   million of direct and associated indirect costs and $3.2 million of claimed cost
                   sharing were allowable, allocable, and reasonable. Because of SDP’s lack of
                   documentation and its failure to take adequate corrective action on the internal
                   control issues cited in a prior January 2000 OIG audit, NSF sustained $3.3 mil-
                   lion of the $4.2 million in questioned costs. In its audit resolution, NSF indicated
                   that correction of the cited internal control deficiencies was vital to an awardee
                   successfully managing and overseeing its NSF funding. NSF further indicated
                   it would not make awards to SDP until it could perform on-site verification to
                   determine that it has adequate systems, policies and procedures in place.

                   WBGH Audit Results in $775,939 Returned to Treasury and
                   Correction of Prior NSF Error

                   In the March 2008 Semiannual Report,9 we reported on an audit of WGBH
                   Foundation, a non-profit television production organization, which questioned
                   $808,383 of the approximately $9.4 million in total costs claimed on five NSF
                   awards. WGBH did not comply with either NSF or its own policies when it
                   claimed and obtained reimbursement for $775,939 for NSF project employment
                   and rental contract costs before they were incurred. With the NSF appropriation
                   supporting the grant set to expire, WGBH claimed these costs in advance to
                   prevent losing access to the NSF Funds. WGBH believed that it had NSF’s
                   consent in claiming the $775,939 of future costs and therefore disagreed with
                   the questioned costs. The auditors also questioned $32,444 of costs that either
                   did not relate to the NSF awards or for which WGBH did not have adequate
                   supporting documentation.

                   During audit resolution, NSF sustained $801,646 of the total $808,383 of
                   questioned costs. However NSF rather than WGBH funded the majority of the
                   recovered costs, because NSF’s Office of General Counsel determined that the
                   agency should have replaced the expiring funds at the time the award expired
                   with a no-cost extension. NSF returned the $775,939 from the expired appro-
                   priation to the U.S. Treasury Department and replaced the funds in the WGBH
                   award with funds from an unexpired appropriation account. WGBH provided
                   NSF with documentation for $6,737 of questioned costs, but was requested to
                   return $25,707 of the remaining questioned costs for the unrelated and unsup-
                   ported costs it had claimed.

                   To address the internal control weaknesses identified in the report, NSF re-
                   quired WGBH to provide for its review copies of WGBH policies and procedures
                   for recording costs on its NSF awards and for maintaining documentation. NSF
                   also required WGBH to develop, implement, and submit detailed policies and
                   8
                       September 2008 Semiannual Report, p. 17.
                   9
                       March 2008 Semiannual Report, p.17.


             24

                                                               OIG Semiannual Report    March 2009


procedures for handling payments to foreign entities under NSF awards. Finally,
NSF verified that WGBH developed an adequate policy for documenting service
center rates.

Universities Required to Implement Changes to their Effort
Reporting Systems

During this semiannual period, resolution was achieved on labor effort reviews
of four universities that were previously reported: University of California, San
Diego,10 University of Utah,11 University of Illinois,12 Urbana-Champaign, and
Vanderbilt.13 In response to our audit findings, the universities have worked on
implementing new time and effort systems to better meet federal effort report-
ing requirements, added internal control policies and structure to improve the
timeliness of their labor effort certification processes, and provided training on
charging effort to NSF sponsored awards. These actions should correct the
deficiencies cited. NSF sustained $87,820 of $122,782 in questioned costs.

$50,166 in Questioned Costs Sustained and Internal Control Weaknesses
Corrected at the University of California, San Diego. In 2008, we reported
that University of California, San Diego (UCSD) labor effort certifications, affect-
ing approximately $28 million of salary costs charged to NSF annually, were not
timely and did not always ensure that salary and wages charged to NSF awards
reasonably reflected actual work performed on sponsored projects.

As a result, the University instituted an automated effort reporting system
(ECERT) to improve timeliness and accuracy of effort reports. UCSD also
added new procedures to address the timeliness issue by notifying university
officials about late certifications at progressively higher levels of supervision. In
addition, UCSD has taken steps to strengthen its training program and ensure
effort charged to NSF sponsored awards is accurately reported. These actions
by UCSD should correct the deficiencies cited in the report. NSF sustained
$50,166 of the $85,128 questioned costs and has verified that the sustained
costs were repaid to NSF.

University of Utah Agrees to Implement Changes to its Effort Reporting
System. The University of Utah has implemented a number of policy and
internal control changes that should correct most of the deficiencies cited in the
2007 audit report. It agreed to establish a faculty and administrative committee
to enhance its Personal Activity Report (PAR) submission guidelines to improve
the timeliness of its effort reports. The University also clarified its guidance
related to what constitutes “suitable means of verification”, to help ensure that
individuals approving effort reports have a basis to know whether the work was
actually performed. Finally, the University established mandatory effort report
training for all employees involved in the PAR process.




10
   September 2008 Semiannual Report, p. 17.
11
   March 2008 Semiannual Report, p.17.
12
   March 2008 Semiannual Report, p.16.
13
   September 2008 Semiannual Report, pp 16-17.

                                                                                        25

Audits & Reviews


                    $6,329 in Questioned Costs Sustained, Internal Control Weaknesses Cor-
                    rected at the University of Illinois. A 2008 audit report stated that the Uni-
                    versity of Illinois, Urbana-Champaign (Illinois) needed to improve the reliability
                    of after-the-fact confirmation of actual salary charges to federal awards, which
                    amount to $86.3 million annually. Illinois reports that it has since developed
                    and piloted a new web-based time and effort system that will make information
                    on total labor charges available to certifying officials during their semi-annual
                    certification period. In addition, formal written procedures have been imple-
                    mented to improve the timeliness of Illinois’s review and approval of labor effort
                    reports. Finally, Illinois has agreed that as part of an annual risk assessment
                    conducted by its internal auditors, the University’s payroll distribution and labor
                    effort report system will continue to be subject to periodic reviews, particularly to
                    ensure compliance with federal laws and regulations. NSF sustained all $6,329
                    in questioned costs.

                    $31,325 in Questioned Costs Sustained and Internal Control Weaknesses
                    Corrected at Vanderbilt University. In 2008, OIG auditors reported that
                    Vanderbilt University did not approve effort reports timely and/or document
                    certification dates in a majority of the records sampled. Vanderbilt states that
                    it has since developed and implemented a web-based effort reporting system
                    called Electronic Personnel Action Change system (ePAC), providing a more
                    effective and timely labor effort certification system. In addition, the University
                    has agreed to update its policies to reflect the changes brought about by ePAC.
                    Vanderbilt’s Provost Office issued written guidance to: improve the accuracy of
                    labor effort charges, establish tolerance ranges when actual labor effort varies
                    from amounts claimed, and provide for proper tracking and reporting of cost
                    share commitments on sponsored projects. NSF sustained all of the $31,325 in
                    questioned costs.

                    NSF Removes Unallowable Profits from Arctic Contract

                    In our September 2007 Semiannual Report,14 we reported on two audits of a
                    revised Disclosure Statement and an associated Cost Impact Proposal that
                    VECO USA Inc. (presently CH2M HILL) submitted in regard to a proposed
                    accounting change. The contracted auditors, Defense Contract Audit Agency
                    (DCAA), took no exception to either the Disclosure Statement revision or the
                    proposed increase in contract cost, but did not express an opinion on the
                    $45,240 of increased profit that VECO proposed to charge NSF as a result of its
                    accounting change.

                    Shortly after DCAA issued its audit reports, NSF modified its contract with
                    VECO to pay both the increase in contract cost due to the accounting change
                    and the associated increase in profit. OIG followed up with a separate audit to
                    review the allowability of paying the increase in profit under the arrangement
                    entered into between VECO and NSF, and found that it was not allowable under
                    the Federal Acquisition Regulations, which prohibit a cost-plus-a-percentage-
                    of-cost system of contracting. NSF resolved this audit by reversing the entire
                    $45,240 increase in profit. As a result of this audit, NSF also discovered and
                    reversed a similar $10,283 increase in profit awarded earlier to VECO, recoup-
                    ing a total of $55,523 of funds which can be put to better use.

                    14
                         September 2007 Semiannual Report, p. 15.

             26
	
                                                             OIG Semiannual Report    March 2009


NSF Sustains $22,796 of Questioned Costs Due to Internal Control
Weaknesses at WestEd

In September 2008, we reported that OIG audited $11 million of costs claimed
by WestEd, a non-profit educational research organization, and identified four
significant internal control weaknesses in WestEd’s financial management that
resulted in approximately $1 million in questioned costs. During audit resolution
WestEd provided documentation to support the portion of questioned costs that
were cost shared. However, NSF requested that WestEd revise its cost share
policy to ensure that in the future its supporting documentation provides the
basis for determining the value of third party in-kind contributions, in accordance
with federal guidelines. NSF also sustained $15,130 in questioned subaward
costs but urged WestEd to adhere to its subaward monitoring policy. In addi-
tion, NSF sustained $7,666 in overstated indirect costs claimed as a result of
misclassifying participant support costs and claiming sales taxes on alcoholic
beverages. To prevent recurrences, WestEd is providing additional training to its
program and accounting personnel and amending its accounts payable policy to
exclude reimbursement of sales tax on alcoholic beverages. NSF will review the
revised policies once they are completed and submitted by WestEd.



Work in Progress

OIG Monitoring NSF’s Antarctic Support Contract Competition

NSF is currently deciding which contractor will manage the United States
Antarctic Program (USAP) for the next 13.5 years. The new contract, NSF’s
largest, is expected to be valued at over $2.3 billion and provides for Antarctic
research logistics, support, and operations and facilities maintenance. The
acquisition is one of NSF’s self-identified significant management challenges
because the process has inherent risks and represents a significant investment
of NSF dollars.

In an effort to prevent the types of problems identified through audits of the
current USAP contract, and share “lessons learned,” we are monitoring NSF
activities regarding this procurement. Specifically, we are requesting informa-
tion on NSF processes for evaluating the reasonableness of the offerors’ costs
as required by Federal Acquisition Regulations. We also are asking how NSF
plans to address issues such as the adequacy of the offerors’ accounting
systems and controls for complying with disclosed accounting practices. In
providing independent advice during this pre-award phase of the procurement,
we hope to assist NSF in identifying and managing the many risks involved in
this large procurement at an early stage and thereby minimize future contract
administration challenges and problems.

NSF’s Audit Resolution Process

An audit of the process NSF follows to resolve the findings and recommenda-
tions of OIG and A-133 single audits conducted of NSF award recipients is
proceeding. The objectives are to determine: 1) whether NSF has adequate
policies and procedures for resolving and closing out the audit recommenda-

                                                                                      27

Audits & Reviews


                                             tions, and 2) whether NSF implements the policies
                                             and procedures effectively and timely. To address
                                             the objectives, we are evaluating NSF’s resolution
                                             actions for a statistically representative sample of
                                             audits issued during the period FY 2003 through FY
                                             2007. We anticipate issuing two reports; one in the
                                             next semiannual period focused on resolution of OIG
                                             audits of grantees, and a second report in the follow-
                                             ing semiannual period addressing resolution of A-133
                                             single audits.

                                             Sufficiency of NSF’s Cooperative Agreements
                                             for Large Facility Projects

                                            The OIG is conducting a series of audits to determine
                                            whether the terms and conditions included in NSF’s
                                            cooperative agreements for the management and
                                            operation of its large facilities projects are sufficient
                                            for NSF to provide stewardship over its programs
                                            and assets. Using a representative sample of six
    Deputy AIGA Jim Noeth receives a        currently operating facilities, we are assessing the
    PCIE/ECIE Award for Individual      sufficiency of NSF’s cooperative agreements to ensure:
    Accomplishment.                     1) accomplishment of programmatic goals; 2) financial
                                        and administrative account-ability; 3) protection of NSF
                  assets; and 4) compliance with laws and regulations. We issued our first report
                  on terms and conditions ensuring the accomplishment of programmatic goals in
                  September 2008.

                   Labor Effort Reviews Continue at Universities

                   Since September 2005, the OIG has been conducting a series of audits to
                   assess the adequacy of accounting and reporting processes for labor costs
                   at NSF’s top-funded universities. Approximately one-third of all NSF funds
                   provided to universities are for salaries and wages, amounting to more than
                   $1.2 billion annually. Since The American Recovery and Reinvestment Act will
                   significantly increase NSF’s funding of grants over the next 18 months, NSF’s
                   payments for salaries and wages to universities are also likely to increase,
                   thereby enhancing the timeliness and impact of the labor effort reviews already
                   performed.

                   To date, we have completed seven audits and another nine are in progress.
                   Five of those will be completed by the end of the calendar year. The objectives
                   of these audits are to evaluate whether the universities’ internal controls are
                   adequate to properly manage, account for, and monitor salary and wage costs;
                   and to determine whether these costs are allowable in accordance with federal
                   cost principles. Once these 16 audits are completed, we plan to assess all
                   audit findings and recommendations to determine their relevance to the broader
                   population of NSF grants.




             28

                                                         Investigations
Civil and Criminal Investigations
False Claims Act Case Against University Settled For $7.6
Million

OIG participated in a multi-agency investigation of allegations
against a Connecticut university, resulting in a civil settlement under
which the university paid $7.6 million to the federal government.
The investigation and settlement involved $3 billion in federal
awards to the university from 2000 through 2006. We worked with
the U.S. Attorney’s office and agents and auditors from the FBI and
OIGs for HHS, DOD, NASA, and DOE.

The investigation focused on allegations involving two types of
mischarges to federal grants. Both types of mischarges arose as
violations of the basic principle that recipients of federal grants are
allowed to charge to each grant account only “allocable” costs,
which are costs that relate to the objectives of that grant project.
The first allegation involved cost transfers and the requirement that
costs transferred to a federal grant account must be allocable to
that particular grant project. It was alleged that some university PIs
at times improperly transferred charges to a federal grant account
to which those charges were not allocable. PIs allegedly were
motivated to carry out these wrongful transfers when the federal
grant was near its expiration date and they needed to spend down
the remaining grant funds.

The second allegation involved salary charges and the requirement
that charges to federal grant accounts for researcher time and
effort must reflect actual time and effort spent on a particular grant
project. It was alleged that some university PIs at times submitted
time and effort reports, for summer salary paid from federal grants,
that wrongfully charged 100 percent of their summer effort to
federal grants when, in fact, the PIs expended significant effort on
unrelated work or were actually on vacation. PIs allegedly were
motivated to carry out these wrongful salary charges by the fact
that they are not paid salary by the university during the summer.

We determined that there was credible evidence to support the
allegations, and that these mischarges were able to occur at least
partly because the university had weak procedures and internal              HIGHLIGHTS
controls in place. The university cooperated fully with the investiga-      Civil and Criminal
tion, which included the production of half a million university             Investigations       29
records. In addition, at the outset of the investigation, the university    Administrative
undertook a prodigious project to revamp its processes to ensure             Investigations       35
prospective full compliance with all federal award requirements.            Research Misconduct
                                                                             Investigations       41


                                                                           29

Investigations


                 During the relevant time period, HHS provided 82% of the award funds received
                 by the university, and NSF provided 5.7%, making NSF’s share of the $7.6
                 million settlement $438,821.

                 Awardee Staff Abuse Procurement Authority

                 In five cases, employees of awardee institutions abused positions of trust
                 for personal gain. Such abuse violates federal as well as state and local
                 criminal laws. Four of the cases involved using grant and university funds for
                 personal purchases, and in the fifth, an awardee contracting officer engaged
                 in a kickback scheme. The importance of preventing these types of abuses
                 is magnified by their emphasis in the Recovery Act, and our office is currently
                 developing several proactive approaches to address this issue.

                        Former Program Coordinator Sentenced To 10 Years In State Prison
                        For Purchase Card Abuse: A former program coordinator under an NSF
                        grant to a Georgia university was sentenced to 10 years in prison, to be
                        followed by 10 years of probation, after she entered a guilty plea to a felony
                        count in the Fulton County Superior Court. The subject had been indicted
                        for theft by racketeering, involving the repeated personal use of a state-
                        issued purchase card to make personal purchases.15 Her personal pur-
                        chases included automobile insurance and repairs, groceries, and jewelry.
                        In order to conceal her personal purchases, the program coordinator altered
                        receipts and used the university accounting system to move her purchase
                        card charges to several different accounts—including accounts for an NSF
                        grant and private grants—so they would be difficult to track. The university
                        subsequently returned all questionable charges to the NSF Grant.

                        Former Research Center Employee Sentenced for Kickback Scheme:
                        A former research center employee pled guilty and was sentenced by a
                        federal judge in the U.S. District Court for the District of Colorado for her
                        orchestration of a kickback scheme. We initiated the investigation because
                        the research organization receives substantial NSF funding. Our investiga-
                        tion disclosed the former employee used her position to steer printing
                        contracts to a vendor in exchange for its agreement to pay a portion of the
                        contract price back to her. As a result of the former employee’s actions,
                        the vendor received approximately $270,000 in business in 2002 and 2003.
                        When that vendor reported the payments made to her to the IRS, the former
                        employee made an arrangement with a friend to set up a faux company to
                        bid on printing jobs, using bids he received from actual printing companies.
                        This pretend printing company paid her amounts she specified for each
                        contract, receiving approximately $450,500 in business from 2003 to 2005,
                        without reporting the payments to the IRS.

                        The former employee was sentenced to 12 months home detention with
                        electronic monitoring, three years probation, and ordered to pay a $100
                        special assessment fee and restitution of $80,746. We recommended that
                        NSF debar the former employee for three years, and NSF’s decision is
                        pending.

                 15
                      March 2008 Semiannual Report, p.28.


           30

                                                              OIG Semiannual Report    March 2009


       University Employee Used Purchase Card for Personal Purchases
       And Charged NSF Award: A Michigan university’s office of internal audit
       determined that, over a 2-year period, an administrative assistant used her
       university purchase card to make personal purchases totaling $24,405, of
       which $11,765 was charged to an NSF award. The charges to the NSF
       award were listed by the employee as computer supplies, when in fact they
       were all personal items such as clothing, nail salon services, cable and
       cellphone service, and gasoline.

       The university’s investigation determined that the employee’s supervisor
       failed to request or review her monthly purchase card statements as
       required by the university’s policy. When interviewed by the university, the
       supervisor indicated that she was not aware she was supposed to review
       and approve the purchase card statements on a monthly basis. The super-
       visor’s lack of oversight facilitated the employee’s embezzlement scheme.

       The university terminated the employee and returned $11,765 to NSF.
       The university filed criminal charges with the local prosecutor’s office and
       the employee pled guilty to 1 criminal count of embezzlement and was
       sentenced to 5 years probation and ordered to pay full restitution of $24,405
       to the university and $7,691 to reimburse the university’s office of internal
       audit’s cost of investigation. We recommended that NSF debar the former
       employee for 3 years.

       PI Misappropriated NSF Award Funds Totaling Over $282,000: The
       director of a university medical research center, who served as a PI on
       an NSF award, made inappropriate purchases and improperly charged
       $282,409 to the NSF award over a 2-year period. The PI purchased numer-
       ous personal items with NSF award funds, some of which he had shipped
       directly to his home. The personal purchases included two LCD computer
       monitors, a CD drive, a video card, cherry bookshelves, and books. In
       addition, he inappropriately charged for equipment and travel expenses
       allocable to non-NSF awards and for items which could not be properly
       charged to any award. The university also discovered that the PI had
       improperly charged $678,000 to other federal awards.

       The university returned $282,409 to NSF for these inappropriate expen-
       ditures and terminated the PI from his position at the university. The U.S.
       Attorney’s Office declined prosecution of this matter because the university
       had returned all of the funds to NSF for all the fraudulent charges. We
       recommended that NSF debar the PI for 3 years and prohibit him from
       serving as an NSF merit reviewer, advisor, or consultant. NSF’s decision is
       pending.

       Debarment Recommendation for Former Research Center Employee:
       We recommended debarment of a former accountant at an NSF-funded
       research center after she was sentenced to federal prison for 32 months, 3
       years supervised probation, 250 hours of community service, restitution of
       $316,874, and ordered her to pay a special assessment fee of $2,200. As
       discussed previously,16 the accountant used state-issued purchase cards

16
     March 2008 Semiannual Report, pp.27-28.

                                                                                       31

Investigations


                        to purchase over 3,800 personal items over five years. The sentencing
                        followed a plea of guilty by the accountant in the U.S. District Court for the
                        Northern District of Georgia to 17 counts of mail fraud and 5 counts of theft
                        from an organization receiving federal funds. We recommended that NSF
                        debar the former employee for five years, and NSF’s decision is pending.

                 Impersonation of an NSF Official Results in Felony Conviction, Five
                 Years Probation, and $80,000 Fine

                 We previously described a case in which a subject impersonated an NSF of-
                 ficial, to lure women to participate in a fake NSF research project in California.17
                 He pled guilty to one count of violation of 18 U.S.C. § 912, False Personation
                 of an Officer or Employee of the United States, and was sentenced to: 5 years
                 probation to include real-time monitoring of his computer use; 6 months home
                 detention; and payment of fines and penalties totaling $80,100. Following his
                 conviction and sentencing, we recommended that NSF debar the subject for 5
                 years. NSF’s decision is pending.

                 Two School Districts Fail To Handle Award Funds Properly

                 Two school districts returned almost $400,000 in grant funds to NSF after
                 accounting improprieties were uncovered by OIG investigations and audits. In
                 previous OIG investigations into allegations of misuse of NSF funds by school
                 districts, we found significant problems that resulted in settlements under the
                 False Claims Act, repayment of misspent funds, and implementation of compli-
                 ance plans. The problems we found were exacerbated by inadequate internal
                 controls, lack of experience with the requirements for proper expenditure and
                 oversight of federal award funds, and intense budgetary pressure. These prob-
                 lems are likely to increase as the current financial crisis leads to dramatically
                 lower tax revenues for local governments required to operate with balanced
                 budgets. The recent passage of the Recovery Act may result in a significant
                 increase in NSF funding to such institutions, posing greater risks for fraud,
                 waste, and abuse. With current budget shortfalls and reductions in base fund-
                 ing to school districts, an aggressive approach to preventing the misuse of the
                 additional funds is critical to the programs’ success. In an effort to identify the
                 most efficient use of our resources, we are developing proactive approaches to
                 identify risk factors to reduce as many as possible.

                        California School District Returns $300,000 And Implements A
                        Compliance Plan To Resolve False Claims And Other Wrongdoing: A
                        public school district in California entered into a settlement agreement with
                        the Department of Justice (DOJ) under which it agreed to repay $300,000 to
                        NSF. The district’s lack of internal controls and misuse of government funds
                        were initially discovered during an NSF OIG audit. The matter was referred
                        to OI, and our investigation determined that the district had submitted ap-
                        proximately $1.7 million in false claims, by charging awards for unallowable
                        items, overcharging indirect costs, and failing to properly track participant
                        support funds.



                 17
                      September 2008 Semiannual Report, p.28.


           32

                                                             OIG Semiannual Report     March 2009


   Because the district is facing financial difficulties and lay-offs, NSF
   agreed to accept the settlement along with a compliance plan designed to
   ensure that the district’s internal controls and oversight of NSF funds are
   strengthened so that such fraud does not reoccur. This compliance plan
   requires the district to revise policies, train staff, and perform annual reviews
   to ensure continued compliance with all NSF requirements. They are also
   required to submit annual reports to OIG identifying any discrepancies and
   addressing the corrective actions they have implemented.

   Alabama School District Fails to Account for Funds: A public school
   district returned $97,867.56 to NSF after our investigation disclosed it had
   drawn down more money than it could account for. This investigation was
   opened pursuant to a proactive review of cooperative agreements. During
   the course of our investigation, the school district provided various versions
   of general ledgers for this award, unable to ascertain the exact amount it
   had spent. Finally, the chief financial officer certified to the exact dollar
   figure of supportable expenditures. This certified amount was $97,867.56
   less than what the school district had drawn down from NSF, so it returned
   the amount of funds it could not vouch for to NSF.

University Changes Award Management Practices in Wake of
Misusing Participant Support Funds

We continue to receive allegations about the misuse of participant support
funds, which are separately budgeted and cannot be spent for other purposes
without advance written permission from NSF. We have investigated several
such allegations as False Claims Act cases, resulting in the repayment of
misspent funds, implementation of new policies, and imposition of compli-
ance plans. In this semiannual period, a university returned $83,994.51 and
changed its award management practices, after our investigation revealed it
misused participant support funds. This investigation was opened pursuant
to a proactive review of participant support funds. The investigation revealed
that on two NSF awards, the university reallocated participant support funds
to other budget line items without the required prior written approval from NSF.
In addition to returning the misused funds, the university’s office of sponsored
research now sends notices to PIs who have awards containing participant
support funds, drawing their attention to the NSF requirement for prior written
approval for rebudgeting. The university also created a mechanism in its
financial system that flags any rebudgeting of participant support funds in a
timely manner.

Small Businesses Abuse NSF Grants

One small business owner was debarred and another recommended for debar-
ment after two unrelated investigations indicated that they had abused their
NSF grants. Small businesses are generally considered to be at greater risk
for such abuse because they often lack the staff and internal control systems to
ensure compliance with federal award requirements. In addition, because the
scientific programs at the 13 federal agencies that provide SBIR awards over-
lap, there is a significant risk that SBIR awardees can obtain duplicative funding
for the same project from different agencies. Consequently, we continue to


                                                                                       33

Investigations


                 receive and investigate allegations of wrongdoing involving SBIR awards, which
                 often result in criminal convictions, False Claims Act settlements, repayment of
                 misspent funds, and debarment of companies and individuals.

                        PI And Her Company Debarred For Misrepresentation To NSF: As
                        reported in a previous Semiannual Report,18 a PI and small business owner
                        wrongfully received a Phase II grant from the Small Business Innovation Re-
                        search (SBIR) Program based on the PI’s statements that her new company
                        was a “spin-off” of the Phase I awardee (the first company). The PI was an
                        officer and co-owner of the first company but was the sole owner of the new
                        company. Our investigation found that the new company was not a “spin-
                        off” of the first company because it had no affiliation with the first company
                        or its other co-owners (who were unaware that the PI had negotiated the
                        change of grantee with NSF). Based on our recommendations, NSF termi-
                        nated the grant to the PI’s new company, thereby making $274,999 available
                        for other purposes, and debarred the PI and her company for three years.
                        The NSF SBIR program also implemented procedures to ensure this type of
                        scheme is not repeated.

                        Former Professor’s Involvement in Outside Companies Questioned:
                        An OIG investigation into an allegation that a former professor at a Colorado
                        university submitted a proposal to NSF that overlapped with an undisclosed
                        proposal from an external non-profit research company founded by the
                        subject, resulted in a recommendation of debarment. The university and
                        our office both conducted investigations into improper award management
                        and conflicts of interests. NSF had concurrent awards to the subject at the
                        university and the first company, but more recently only to the company.

                        Our investigation revealed that the subject, consistently and over a period of
                        many years, violated or disregarded various federal and NSF award admin-
                        istration requirements, violated university policies related to conflicts and
                        outside compensation, and repeatedly misled both NSF and the university
                        as to material facts about his outside companies and other matters relating
                        to NSF awards. After many years of operation of the first company, the
                        subject created a second, for-profit company that acted as a subcontractor
                        to the first company. The subject was the sole owner and employee of
                        the second company, which existed solely to receive grant funds from the
                        first company and pay them to the subject as salary. The subject failed to
                        notify NSF of the subcontracting relationship with the second company, and
                        improperly failed to limit indirect charges for the subcontract costs to the
                        first $25,000 as required.

                        The university repeatedly asked the subject to disclose all outside financial
                        interests, and he repeatedly withheld information about the funds he re-
                        ceived from his companies; when the university learned the truth, it severely
                        restricted his access to its research facilities. The professor then resigned
                        from his tenured faculty position.




                 18
                      September 2007 Semiannual Report, p.26.


           34

                                                           OIG Semiannual Report   March 2009


   When we asked him to supply supporting documentation for the salary pay-
   ments, the subject provided timesheets reflecting highly implausible work
   hours—for example, the subject claimed effort averaging nearly 14 hours
   a day for 98 continuous days between May and August 2002 (including
   weekends and holidays), and in other instances claimed to have devoted as
   much as 21 hours per day to the project. We recommended that NSF debar
   the subject for five years, and NSF’s decision is pending.

University Self Audit Reveals Weaknesses in Award Management and
Prompts Award Monitoring Changes

A university returned $139,095 to NSF for one award and de-obligated $22,250
to another NSF award following an investigation into their award management
practices. Our investigation was prompted by the discovery that the university
had agreed to remove one of its PIs from any responsibility over federal funds,
as the result of an investigation by the Department of Energy (DOE) OIG and
settlement agreement with the Department of Justice.

To determine if NSF awards had been affected, we selected an NSF award
and requested documentation from the university. The university responded
by auditing the award, and concluded that $139,095 had not been properly
disbursed, returning that amount to NSF. We then requested information about
a second award, and the university’s audit revealed $22,250 that was question-
able, which the university de-obligated from the open award.

Having confirmed that the university’s internal control processes were question-
able, we recommended that NSF designate this university as “high risk” until
it can demonstrate that effective award monitoring and management practices
have been implemented. NSF’s decision is pending.



Administrative Investigations
In both this and the previous Semiannual period, we referred a number of
employee misconduct cases to NSF, as well as management recommendations
for improving NSF’s workplace environment. These cases involved travel
abuse by senior NSF managers, questionable personal relations between
supervisory/subordinate senior managers, misuse of NSF resources for col-
lecting, viewing, and disseminating pornography, as well as telephone resource
and time and attendance abuse. In our view these cases raise concerns about
NSF’s professional workplace environment. Here we report NSF’s findings
and interim or final actions in each case, or whether it remains pending. We
have expressed concern to NSF about the length of time it has taken to resolve
these cases and the timeliness with which NSF has provided information to us
about their resolution. To address these concerns, NSF and OIG are working
to develop procedures to ensure that OIG receives information in a timely and
effective manner.

We first report new matters that we have referred to NSF for action, and then
report the actions NSF has taken, consistent with federal personnel rules, in
previously-referred cases as well as its actions on recommendations to improve
NSF’s workplace.
                                                                                   35

Investigations


                  New Matters Referred to NSF

                  Two Employees Conspire to Abuse NSF’s Integrated Time and At-
                  tendance System

                  Our investigation determined that two NSF program assistants routinely signed
                  each other in or out of NSF’s Integrated Time and Attendance System (ITAS),
                  resulting in both employees receiving salary for hours they did not work. Both
                  employees had previously been warned by their supervisor to cease their abuse
                  of ITAS.

                  We analyzed the employees’ ITAS records for a six-month period, comparing
                  them with ID badge usage reports, emails, and telephone records, to determine
                  when they actually started and ended their work days. Our analysis determined
                  that one of the employees had improperly received pay for more than sixty-
                  three hours during that period, resulting in a loss to NSF of $1,187, while the
                  second employee improperly received pay for more than thirty-four hours
                  resulting in a loss of $576. Both admitted to abusing the ITAS by signing each
                  other in or out.

                  We concluded that the employees engaged in fraudulent activity by knowingly
                  abusing NSF’s ITAS procedures, and recommended that NSF proceed with
                  appropriate administrative action. NSF issued a formal Notice of Proposal to
                  Remove each employee, and final actions are pending.

                  Employee Misuse of NSF Telephone Results in Reprimand

                  Our investigation determined that an employee excessively used her NSF office
                  telephone, during official government time, for personal phone calls. We ana-
                  lyzed the employee’s outgoing and incoming telephone records for a two-year
                  period, focusing on the monetary and time costs associated with one friend’s
                  telephone number. Our analysis indicated the direct cost of calls made to the
                  same telephone number totaled $790, and the employee spent the equivalent
                  of thirty-seven work-days on calls to and from that one telephone number. The
                  employee thus earned approximately $15,000 while talking on the telephone
                  for personal purposes. Although the employee maintained the communication
                  was generally work-related, our review of her emails revealed that she was also
                  in frequent email contact with the person she was talking to on the telephone,
                  often on personal matters unrelated to her NSF duties. Indeed, in one email,
                  the friend wrote that she was “overwhelmed with the phone time you seem to
                  require” and was getting “nothing done” with her own work.

                  We concluded the employee knowingly violated NSF’s telephone use policies
                  and the government’s ethical standard requiring her to use official time to per-
                  form official duties. We further noted that, since the employee was the subject
                  of an OIG investigation in 2003 regarding abuse of her NSF travel credit card,
                  she should have been especially vigilant in ensuring her subsequent conduct
                  was in compliance with NSF and federal requirements. We recommended that
                  NSF take administrative actions appropriate and consistent with previous similar
                  employee incidents. NSF issued a formal Official Reprimand to the employee,
                  and she invoked her right to grieve that action under NSF’s Collective Bargain-
                  ing Agreement (CBA).

           36
	
                                                             OIG Semiannual Report    March 2009


NSF Employees and Contractor Personnel Sent, Received, and
Saved Emails Containing Pornography

During the course of investigating four employees for improper use of NSF
computers for pornography, we identified an additional nineteen employees and
contractor personnel who had also sent, received, and saved emails containing
pornographic images, dating as far back as ten years. We found no evidence
that these individuals violated federal law; accordingly, we forwarded our find-
ings to NSF with a recommendation that it initiate investigations to determine
the extent of these activities and take appropriate administrative actions.

Of the eight NSF employees, two are no longer with NSF. Three of the
employees had worked at NSF for thirteen, eighteen, and twenty-one years,
respectively, and after this reporting period, NSF issued a formal Notice of
Proposal to Remove each of them. Final actions on those three employees are
pending, as are any actions for the other three.

Eleven of the individuals were contractor employees. After being notified by
NSF, the contractor provided oral counseling to three of its employees, provided
a written warning to two, suspended four for five days each, and terminated four
(two of whom it had previously suspended). The contractor reinforced its poli-
cies on appropriate use of IT resources by having all of its employees read and
sign a new email policy memo which includes the requirement that they adhere
to IT and email policies of governmental agencies where they are assigned.

Previously Referred Cases on Employees Whose Actions Adversely
Affected NSF’s Workplace Environment

•   Two Senior Management Employees Used NSF-Funded Travel To
    Advance Their Personal Relationship: Our investigation determined
    that a senior manager and his direct subordinate, also a senior manager,
    had an intimate personal relationship and took forty-seven joint trips over
    a two-and-a-half-year period, totaling $144,152 of NSF funds. Three
    successive Assistant Directors (ADs) had questioned the supervisor and
    subordinate about the necessity for their extensive joint travel, and one of
    the ADs restricted joint travel because of concern that the repeated concur-
    rent absences were having a negative effect on the work of their division.
    Despite these ADs’ concerns, neither the supervisor nor his subordinate
    disclosed the nature of their relationship to any of the ADs—explaining to
    investigators that they believed that if the ADs had known about the relation-
    ship, trips would have been “squashed” or “cancelled.” The ADs told us
    that, if they had known about the intimate relationship, they may have made
    different decisions regarding the propriety and necessity of such joint travel.

    The subordinate admitted that some of the NSF-funded trips included days
    added on solely to further the relationship, and she also admitted that it was
    unnecessary for both of them to go on many of the trips. The supervisor
    insisted that all trips and the duration of all trips were necessary. We were
    unable to determine the full amount of NSF travel funds expended to further
    their personal relationship. Based on the subordinate’s admissions regard-
    ing three specific trips, and other evidence, we determined that at least
    $1,500 of personal travel expenses were inappropriately paid by NSF.
                                                                                      37

Investigations


                        The Department of Justice declined prosecution, so we referred this matter
                        to NSF for appropriate administrative action regarding: failure to meet the
                        standards of conduct expected of senior-level managers; failure to comply
                        with NSF travel rules; lack of candor in failing to disclose the nature of their
                        relationship when providing justifications for joint travel to the ADs; and the
                        inappropriate use of NSF travel funds to further their personal relationship.

                        While our investigation was ongoing, we informed NSF of our preliminary
                        findings. NSF announced publicly that the supervisor had accepted a
                        new senior position in the AD’s office, and withdrew its nomination of the
                        supervisor for a prestigious award. NSF also significantly downgraded
                        both the supervisor’s and subordinate’s performance appraisals and denied
                        the supervisor a performance bonus. The subordinate has appealed her
                        performance rating, and that appeal is pending. NSF also contracted for a
                        review of potential sexual harassment in the relationship. With regard to the
                        questionable travel costs, NSF informed OIG that it determined that there
                        were reasonable scenarios that could account for the travel expenses, but
                        recently informed us that it is continuing to evaluate the supervisor’s use of
                        federal funds for personal travel expenses.

                        In the course of this investigation, OIG encountered significant difficulties
                        obtaining certain information from NSF because NSF viewed the informa-
                        tion as attorney-client privileged. The protracted resolution of that issue
                        resulted in a seven-month delay in our investigation. We were ultimately
                        provided the information we requested, but only after NSF twice sought the
                        opinion of the DOJ Office of Legal Counsel—which twice affirmed OIG’s
                        access to such information.

                 •		 Senior Level Official Misused NSF Travel Funds:19 In our September
                     2008 Semiannual Report we reported the results of our investigation of a
                     senior NSF manager (the subject) for misusing travel funds and abuse of
                     authority. We determined that the subject based his decisions to take NSF-
                     funded travel, at least in part, on his desire to further personal relationships
                     with women, one of whom was affiliated with NSF. He also exhibited a lack
                     of candor when he provided false or misleading information to us in the
                     course of our investigation. We further concluded that the senior official’s
                     actions resulted in a loss of $11,283 to NSF in misused travel funds.

                        In response to our recommendations, NSF informed us that it had
                        concluded that the majority of the NSF-funded travel at issue in the report
                        was taken for legitimate reasons. NSF agreed, however, that some of
                        the travel was personal in nature. In December 2008, NSF resolved this
                        matter by orally reprimanding the subject, requiring him to return $1,215.50
                        for personal travel expenses, prohibiting him from engaging in any future
                        NSF-funded international travel; and requiring him to obtain approval from
                        a superior for NSF-funded domestic travel. NSF did not foreshorten the
                        duration of his tenure at NSF. The subject is scheduled to return to his
                        university in late summer 2009.


                 19
                      September 2008 Semiannual Report, p.30.



           38
                                                          OIG Semiannual Report   March 2009


•		 An NSF employee who was overheard viewing pornographic videos
    was found to have used his NSF computer to visit a variety of
    pornographic websites on numerous occasions during official work
    hours.20 NSF issued a formal Proposal followed by a Decision suspending
    him for ten calendar days without pay.

•		 An NSF employee continued to store sexually explicit image files
    on his NSF computer, despite being previously reprimanded for
    downloading inappropriate files and peer-to-peer software on his NSF
    computer.21 The employee also sent emails from his NSF account that
    contained numerous sexually explicit image and video files to users outside
    NSF. Based on our findings and his recidivism, NSF issued a formal
    Proposal to Remove followed by a Decision terminating the employee. After
    being terminated, the employee invoked his right to grieve under NSF’s
    CBA, and that process is pending.

•		 An NSF employee stored and viewed numerous sexually explicit im-
    age files on his network drive.22 NSF issued a formal Notice of Proposal
    to Suspend the employee for ten calendar days without pay, and final action
    is pending.

NSF Implements Additional Changes to Respond to OIG Recom-
mendations To Enhance The Professional Workplace Environment

We previously described recommendations we made in July 2008 to NSF
management, and some of management’s responses, to address systemic
issues raised by numerous cases that reflected poorly on the workplace
environment at NSF.23 In this semiannual period, we provided additional recom-
mendations and NSF management implemented more—but not yet all—of the
recommendations:

•		 We reviewed NSF’s IT security awareness training and recommended
    changes to limit future abuses. NSF agreed to modify its online training
    consistent with our recommendations, but was subsequently required by
    OPM to convert its online training into an NSF-specific module that would
    work with OPM’s governmentwide module. In February 2009 we evaluated
    the final version of the NSF module, in which NSF endeavored to imple-
    ment our previous recommendations. We noted numerous opportunities
    for improvement, to emphasize the appropriate use of resources including
    providing direct hyperlinks to NSF policies and requiring each employee to
    certify acknowledgement of the policies and restrictions. In March 2009
    NSF notified us that it had implemented all of our recommended changes.

•		 We recommended that NSF implement internet filtering software to prevent
    web access to inappropriate websites, such as those that include gambling
    or pornography; monitor attempts to access such sites; periodically search


20
   September 2008 Semiannual Report, p.32 (1st bullet).
21
   September 2008 Semiannual Report, p.32 (2nd bullet).
22
   September 2008 Semiannual Report, p.32 (3rd bullet).
23
     September 2008 Semiannual Report, pp.32-33.


                                                                                  39

Investigations


                      NSF servers for saved pornographic image and video files; and notify OIG
                      if it discovers material that violates federal law. NSF notified us in October
                      2008 that it had installed internet filtering software, but it has not implement-
                      ed our other recommendations—however, in response to a Congressional
                      inquiry, NSF recently stated that it is reviewing options that, if implemented,
                      would be responsive to those recommendations.

                 •		 We recommended that NSF implement email filtering to remove pornogra-
                     phy sent and received through NSF’s servers, and NSF is reviewing options
                     to do so.24 In response to a Congressional inquiry, NSF recently stated
                     that it has acquired independent commercial expertise to assess current
                     control environment, including filtering and file scanning, and will ensure that
                     changes to established controls are communicated to us.

                 •		 We recommended that NSF ensure management oversight of personal use
                     of computer systems, security systems, and employee training. In response,
                     on February 20, 2009, NSF’s Director issued a memorandum to all Assis-
                     tant Directors and Office Heads regarding “Appropriate Use of Government
                     Resources,” reminding them that all employees must respect and adhere to
                     the principles of ethical conduct required of federal employees. As required
                     by that memorandum, each NSF office conducted an all-hands meeting by
                     March 20, to advise employees of the importance of responsible use of gov-
                     ernment resources. While these actions represent a good start, additional
                     actions will be necessary to comply with the intent of our recommendation.

                 •		 We recommended that NSF consider development of a formal policy on
                     alternative means of employee discipline,25 and train managers on its use.
                     We are awaiting NSF’s response to this recommendation.

                 •		 In response to our recommendation, NSF recently issued two employee
                     bulletins clarifying the “Definition of Official Travel” and the “Use of Leave
                     While On Official Travel.” NSF has not yet completed its review of travel
                     authorization process identified as lacking sufficient internal controls during
                     recent investigations, but it indicated that “once this review has concluded,
                     we will make recommendations with regard to how we might further improve
                     our policies and our internal controls.”

                 •		 Finally, in the last Semiannual Report, we recommended that NSF increase
                     the visibility of its Office of Equal Opportunity Programs (OEOP) including
                     making operational all web links internally and externally to OEOP’s website,
                     and developing guidelines and training to aid both managers and staff.26 In
                     January 2009 NSF published new policy statements on “Equal Opportunity
                     and Diversity” and “Prevention of Harassment,” continued to address prob-
                     lems with internal and external OEOP web pages and staff contact pages,
                     and took steps to make it easier for employees to locate OEOP assistance.

                 24
                    Regarding this recommendation, an email exchange discovered by NSF in one of its investigations is 

                 noteworthy: two NSF employees (who were issued Notices of Proposal to Remove in connection with an 

                 OIG referral) discussed a news article about Congressional inquiries regarding NSF employees accessing 

                 pornography on websites, and one agreed with the other’s advice to be more cautious about the pornography 

                 they exchanged via email—after which the cautioned employee sent the other employee another porno-
                 graphic email.

                 25
                    See “Alternative Discipline: Creative Solutions for Agencies to Effectively Address Employee Misconduct,” 

                 MSPB 2008, available at mspb.gov.
	
                 26
                    Semiannual Report to Congress September 2008, p.33

           40

                                                              OIG Semiannual Report    March 2009


   It also initiated a search for a permanent director of the OEOP, a position
   that has been held by an acting Director for over a year. In response to our
   recommendation to implement new guidelines and training to assist manag-
   ers in addressing allegations or knowledge of intimate relationships between
   supervisory and subordinate staff, NSF stated that it would “evaluate the
   content of upcoming training offerings and ensure that the important issues
   highlighted in our list of recommendations were adequately addressed.”



Research Misconduct Investigations
Since its inception, an important element of this OIG’s overall program has
been the pursuit of cases against individuals who commit research misconduct
involving NSF proposals and awards. Science and scientific integrity have
received heightened attention from both Congress and the White House. In
addition, the recent enactment of the Recovery Act has established enhanced
expectations regarding the accountability of public funds. It is therefore more
critical than ever to ensure that all of those funds are expended on research
and education projects that are carried out with the highest ethical standards,
free of fabrication, falsification, and plagiarism. If an OIG investigation confirms
a case of research misconduct, we refer it to NSF for adjudication.

Actions by NSF Management

Professor Copies from a Funded CAREER Proposal into His Own

A North Carolina faculty member’s CAREER proposal contained extensive
plagiarism from numerous uncited sources, including CAREER proposals previ-
ously submitted to NSF by other researchers. We determined that the faculty
member requested and received copies of multiple funded proposals from NSF
via the Freedom of Information Act. He then copied extensively from several
of the proposals he received into his own proposal. During the university
investigation, the faculty member claimed that he was unaware of the need to
cite the sources for the copied text, an explanation that the investigation com-
mittee found unconvincing. The university determined he committed research
misconduct and terminated him.

In response to our recommendations, NSF: made a finding of research miscon-
duct against the subject; proposed to debar him for three years, required three
years of post-debarment certifications and assurances; prohibited him from
serving as an NSF advisor, reviewer, or consultant for five years; and required
him to complete an ethics training course on plagiarism. NSF’s final decision
on the debarment is pending.

Former NSF Program Officer Blames His Plagiarism On Distraction

A former NSF program officer intentionally plagiarized several pages of material
from a proposal submitted by another PI, which he had recommended for award
during his tenure at NSF. When we asked him about the allegation, he stated
that he had received permission from NSF’s Office of General Counsel to con-


                                                                                       41

Investigations


                 tact the PIs of several proposals he had awarded for information he purported
                 to use in a “best practices” book. Although he obtained the source material for
                 his plagiarism directly from a PI he had funded, there was no indication that the
                 former program officer obtained permission from this PI to use the material for
                 his own proposal.

                 During the university’s investigation of the allegation, the former program officer
                 attributed the copied text to time pressure, sloppy editing, and a computer
                 malfunction that occurred while he was distracted by bird vocalizations at a
                 remote field location. The university found the explanation “almost laughable
                 if the charges were not so grave,” and made a finding of research misconduct;
                 suspended the former program officer for a semester without pay; prohibited
                 him from applying for internal or external funding for two years; and prohibited
                 him from supervising graduate students for one year.

                 We concurred with the university’s findings, particularly given the large amount
                 of text that the former program officer copied into his methodology, substituting
                 only the name of the species he wanted to study. Based on our recommenda-
                 tions, NSF made a finding of research misconduct, issued a letter of reprimand,
                 proposed to debar the former program officer for 18 months, required two years
                 of certifications and assurances following the debarment, banned him from
                 serving NSF in an advisory capacity, and required remedial training. NSF’s
                 final decision on the debarment is pending.

                 PI Copies Substantially From an NSF Proposal Posted on His
                 University’s Website

                 A PI from a Texas university submitted a proposal containing plagiarized text
                 from several sources including significant text from a successful NSF CAREER
                 proposal posted on the subject’s university grant office’s website. This source
                 comprised nearly 30% of the subject’s project summary. We contacted the
                 subject, who admitted having copied material in his proposal. He also informed
                 us that another, pending NSF proposal contained many of the same citation
                 problems, which we confirmed.

                 We referred the matter to the PI’s university. The university’s investigation
                 committee concluded, based on a preponderance of the evidence, that the PI
                 recklessly committed plagiarism, deemed a significant departure from accepted
                 practices. The deciding official required the subject to: develop an educational
                 document about plagiarism; not submit external grant proposals for one year;
                 have a letter regarding the misconduct and completion of the educational
                 document included in his personnel file; send an apology letter to the author of
                 the source text from which the majority of material was plagiarized; and forgo a
                 year’s merit salary.

                 We concurred with the university assessment. Based on our recommenda-
                 tions, NSF: made a finding of research misconduct against the subject; sent
                 him a letter of reprimand; required certifications and assurances for two years;
                 required certification of completion of the approved educational document about
                 plagiarism; and required the subject complete a course on research ethics and
                 lagiarism.


           42

                                                                   OIG Semiannual Report   March 2009



     Assessing Allegations of Verbatim Plagiarism

     NSF defines plagiarism as “the appropriation of another person’s ideas,
     processes, results or words without giving appropriate credit.”27 In verbatim
     copying of text, we often look at “QCR” factors in assessing whether
     “appropriate credit” has been given. Those factors are: whether the copied
     text is quoted (Q); whether a citation (C) to the source appears in the text;
     and whether the citation directs the reader to a source listed in the docu-
     ment’s reference (R) bibliography.

     •     Quotation (Q): We look for authors to distinguish the work of others
           from their own by using quotation marks, block indentation, or some
           other customary and accepted manner of offsetting text.
     •     Citation (C): The citation is the key element that directs the reader to
           the author who wrote the source document. A citation can be indicated
           with parenthetical notation, footnotes, or endnotes, all with the purpose
           of linking the copied material to an entry in the reference bibliography.
     •     Reference (R): We look for the inclusion of the source document in the
           bibliography, with sufficient information to lead the reader to the original
           source.

     The combination of all three factors—Quotation, Citation, and Reference:
     QCR—clearly and unequivocally provides appropriate credit to the original
     author(s) of the words, and effectively dispels an allegation of plagiarism.




Actions by NSF Management on Previously Reported Research
Misconduct Reports of Investigation

In each of the following cases, the NSF Deputy Director made a finding of
research misconduct and took administrative actions. Each of these cases was
previously reported in our September 2008 Semiannual Report:

•        A graduate student subject committed verbatim plagiarism when he
         published a paper derived from his graduate research in an online
         journal and omitted any reference or acknowledgement to his U.S.
         advisor. He also committed intellectual theft when he entered several
         gene sequences developed in his U.S. advisor’s laboratory into an online
         database, again omitting any reference to his U.S. advisor.28 The subject
         gave credit to other individuals who had not participated in the research.
         Because the actions were so serious, and had a lasting, adverse effect
         on the U.S. advisor’s research and the relationship between collaborating
         scientists, we considered this to be one of the most egregious cases of
         research misconduct we have investigated. Consistent with our recommen-
         dations, NSF made a finding of research misconduct against the subject,
         sent him a letter of reprimand, and debarred him for 5 years.
27
     45 C.F.R. § 689.1(a)(3).
28
     September 2008 Semiannual Report, pp.39-40.


                                                                                           43
Investigations



                 •		 A faculty member at a Michigan university unsuccessfully attempted
                     to pass the blame for plagiarism in his NSF proposal to his students.29
                     Consistent with our recommendations, NSF: made a finding of research
                     misconduct; required certification of completion of the remedial training
                     imposed by the university; required certifications and assurances from the
                     faculty member for 1 year; required the faculty member to provide for 1
                     year, with any proposal submitted, his plans for training his students and
                     postdoctoral researchers in the responsible conduct of research; and barred
                     him from serving NSF in an advisory capacity for 2 years.

                 •		 A new faculty member at a Virginia institution plagiarized text into
                     his first NSF proposal.30 The Deputy Director made a finding of research
                     misconduct and imposed the following actions: issued a letter of reprimand;
                     required the PI to provide certification and assurances for 2 years; and
                     required completion of an ethics course.

                 •		 A former professor in an Indiana university knowingly plagiarized
                     from four sources into one proposal.31 The PI subsequently left her
                     academic position to work in the private sector. Based on our recommenda-
                     tions, NSF: made a finding of research misconduct against the subject and
                     sent her a letter of reprimand; required certifications and assurances for one
                     year; and required certification of attending an ethics class.

                 •		 An associate professor at a Texas university plagiarized into seven
                     separate NSF proposals, one of which was an awarded Small Grant
                     for Exploratory Research (SGER) proposal.32 Based on our recom-
                     mendations, the Deputy Director: made a finding of research misconduct
                     against the subject and sent him a letter of reprimand; debarred the subject
                     for 2 years; required certifications and assurances for 2 years; barred
                     the subject from serving as an NSF reviewer for 3 years; and required
                     certification of attending an ethics class. The subject has appealed and the
                     Director’s decision is pending.

                 •		 A senior faculty member at a New Jersey institution plagiarized text
                     into his NSF proposal from a proposal that he received from NSF
                     to review.33 Based on our recommendations, NSF: issued a letter of
                     reprimand containing a finding of research misconduct; required completion
                     of an ethics course; required certifications and assurances for one year; and
                     barred the faculty member from serving NSF in an advisory capacity for two
                     years.

                 •		 A research scientist plagiarized in six SBIR proposals that she
                     submitted over five years.34 Based on our recommendations, NSF: made
                     a finding of research misconduct; required completion of an ethics course,
                     required certifications and assurances for four years; and barred the scien-
                     tist from serving NSF in an advisory capacity for four years.
                 29
                    September 2008 Semiannual Report, p.42.
                 30
                    September 2008 Semiannual Report, p.41.
                 31
                    September 2008 Semiannual Report, p.41.
                 32
                    September 2008 Semiannual Report, p.40.
                 33
                    September 2008 Semiannual Report, p.42.
                 34
                    September 2008 Semiannual Report, p.40.
           44

                                                            OIG Semiannual Report    March 2009


•		 A faculty member at a Pennsylvania university plagiarized text from
    multiple source documents into two NSF proposals, in addition to text
    plagiarized in three other proposals submitted to other agencies and
    funding organizations.35 Based on our recommendations, NSF: issued
    a letter of reprimand notifying the faculty member of the finding of research
    misconduct; required certification and assurances for 2 years; and required
    completion of an ethics course.

Research Misconduct Reports of Investigation Forwarded to NSF
Management

PI Breaches Confidentiality, Then Alters Documents and Fabricates
Story to Mask Plagiarism

An OIG investigation concluded that a PI from a northeastern institution plagia-
rized text, figures, and citations from multiples sources into four NSF proposals.
One of the NSF proposals appeared to contained a substantial amount of
copied material taken from an earlier NSF proposal (the source proposal)
submitted by other researchers. During our inquiry, the PI asserted that col-
leagues at a private company gave her a copy of the source proposal for her
to use as her own. Further, the PI provided copies of emails documenting the
timing and receipt of this information, but did not provide any of the colleagues’
names. We referred the investigation to the PI’s institution.

The institution’s investigation committee decided to focus solely on one
proposal, about 80 percent of which appeared to have been copied from the
source proposal. The PI provided the committee with the name of the part-time
student who also worked at the private company, explaining that the student
provided her with the copy of the source proposal. The student told the com-
mittee it was untrue, but the PI had asked him to state he had received the
source proposal and provided it to her.

As a part of its investigation, the committee requested our assistance in deter-
mining whether the PI had merit-reviewed a DOE proposal. We learned from
DOE that the PI reviewed another proposal very similar to the source proposal
and submitted by the same authors. The committee concluded that the subject
copied the text from the DOE proposal she reviewed and not the source
proposal we originally identified. The committee, with the help of forensic
investigators, also determined that the PI had altered dates on electronic docu-
ments she provided to OIG and the committee to support her story of receiving
the source proposal at a later time from the student. The institution determined
that the PI: breached the confidentiality of the DOE merit review process; and
deliberately attempted to conceal the plagiarism in her proposal by fabricating
a story, which she ultimately admitted doing. The institution determined that
PI committed research misconduct, and accepted her resignation in lieu of
termination.




35
     September 2008 Semiannual Report, p.41.


                                                                                     45

Investigations


                  We concurred with the institution’s conclusion concerning the plagiarism in
                  the proposal. However, after further investigation, we determined that the PI
                  copied text, figures, and citations into four NSF proposals, which represented
                  a significant departure from accepted practices of the relevant research com-
                  munity. Further, with the first proposal, the PI’s breach of the confidentiality
                  of the merit review process, fabricated story (including electronic alteration of
                  files), and involvement of an innocent part-time student in her fabricated story,
                  made her actions extremely egregious. We recommended that NSF: inform
                  the PI that NSF has made a finding of research misconduct; debar her from
                  receiving federal funds for a period of 5 years; and bar her from serving as a
                  merit reviewer for 5 years. NSF’s adjudication on this matter is pending.

                  PI Inadequately Cites Text in a Third of His Proposal

                  An OIG investigation into an allegation that a PI and Co-PI from an institution
                  in California submitted a proposal containing plagiarism, confirmed that the PI
                  had plagiarized text but exonerated the Co-PI. Our analysis found extensive
                  text, two figures, and three figure captions copied from numerous sources. We
                  noted that embedded citations to many of the sources generally did precede or
                  follow the allegedly copied text, but that the text was copied verbatim without
                  quotation marks or other demarcation. Our investigation determined that the PI
                  was solely responsible for the copied text and that fully one third of the proposal
                  was copied from the multiple sources.

                  We concluded, by a preponderance of the evidence, that the PI knowingly
                  committed plagiarism in one proposal, representing a significant departure from
                  accepted practices. We recommended that NSF: make a finding of research
                  misconduct against the PI; send the PI a letter of reprimand; require certifica-
                  tions and assurances from the PI for a period of three years; bar the subject
                  from serving NSF as a reviewer, advisor, or consultant for one year; and require
                  certification of attending an ethics class within one year. NSF’s adjudication is
                  pending.

                  PI Takes Responsibility for Copied Material

                  An Indiana university found that one of its PIs used plagiarized material in an
                  NSF proposal. We received the allegation that a PI and two Co-PIs from the
                  university submitted a proposal containing plagiarism. We contacted the PI and
                  Co-PI, and each named the PI as solely responsible for the annotated text. In
                  his response, the PI also identified a second document from which he copied
                  text. OIG referred the matter to the PI’s university.

                  The university’s investigation committee concluded, based on a preponderance
                  of the evidence, that the PI knowingly committed plagiarism, which constituted
                  a significant departure from accepted practices. They also determined that
                  there was a pattern of plagiarism, in that the subject’s dissertation and a journal
                  article also contained plagiarism. The university required the subject to: submit
                  his work for 3 years to university officials for plagiarism review; complete a
                  Responsible Conduct of Research course; notify the Research Integrity Officer
                  at the university at which he wrote his dissertation and the journal editor of the
                  article that both contained plagiarism; and be aware that any future misconduct
                  will result in dismissal from his current employment.

           46
	
                                                            OIG Semiannual Report   March 2009


We concurred with the university assessment, and recommended that NSF:
make a finding of research misconduct; send the subject a letter of reprimand;
require certifications and assurances from the subject for 2 years; and require
certification of completion of a course in research ethics within a year. NSF’s
adjudication is pending.

Former Professor Plagiarizes in Three Proposals

We received an allegation that a former assistant professor at a Maryland
university submitted an NSF proposal containing plagiarism. During our inquiry,
we identified several source documents from which over two pages of text
were allegedly copied into three NSF proposals. During the investigation, the
subject argued that we should exclude three of the sources from our review,
and we agreed. However we concluded that the subject knowingly plagiarized
approximately two pages of text into three NSF proposals, deemed a significant
departure from accepted practice.

We recommended that NSF: make a finding of research misconduct against
the subject; send him a letter of reprimand; require certifications and assur-
ances for 1 year; bar him from serving NSF as a reviewer, advisor, or consultant
for 1 year; and require certification of attending an ethics class. NSF’s adjudi-
cation is pending.

PI Includes No Citations in Two NSF Proposals

An OIG investigation concluded that a PI copied seven pages of text into two
NSF proposals. It was initially alleged that the subject from a Pennsylvania
institution copied approximately three pages of material from numerous sources
into his two NSF proposals. When we contacted him, the subject did not
contest he had copied text without adequate citation. However, he claimed he
had attended an NSF workshop in which he was told he could copy material
from documents and without citation, a ridiculous claim for which he offered no
evidence. After reviewing the subject’s response, we re-examined the propos-
als and found nine pages of additional copied text. We referred the matter to
the subject’s institution.

The university concluded, based on a preponderance of the evidence, that the
subject knowingly and recklessly committed plagiarism, which constituted a
significant departure from accepted practices. The university terminated the
subject’s employment. We initiated an investigation to verify whether some
copied material was attributable to the subject’s collaboration with another re-
searcher. We determined the subject had co-authored some of the questioned
text, which we then excluded from further review. We concluded the subject
copied approximately seven pages of text into two NSF proposals.

We recommended that NSF: make a finding of research misconduct against
the subject; send the subject a letter of reprimand; require certifications and
assurances from the subject for three years; and require certification of attend-
ing an ethics class within one year. This matter is pending adjudication.




                                                                                    47

Investigations


                 Other Significant Cases

                 University Adequately Addresses NSF Interests in Resolving Re-
                 search Misconduct Allegations

                 We found that a university’s resolution in a plagiarism case involving several
                 professors and a graduate student adequately protected NSF and the federal
                 government. Allegations arose against a graduate student and several NSF-
                 funded professors, when the graduate student moved from one NSF-funded
                 research group to another and continued to work on a similar research project.
                 The allegations concerned the use of the first professor’s ideas by the student
                 and the professors in the second group. At about the same time, the first
                 professor allegedly plagiarized from the student when he published a paper
                 as a sole author in which he reused text he had previously published with the
                 student as a co-author.

                 The university found no misconduct with respect to the student and the profes-
                 sors in the second group. However, the university found that the first professor
                 had committed plagiarism by using the majority of the coauthored text in the
                 subsequent publication because he omitted the student as an author. The
                 university issued a letter of reprimand to the professor, imposed remedial
                 training in ethics, required the professor to have senior faculty supervision of his
                 mentorship of students, and required attestations to his department chair that
                 the work he publishes does not contain plagiarized material.

                 We found that the university investigation was accurate, complete, and sup-
                 ported by the evidence and university policies. Although the professor’s actions
                 raised serious concerns for our office, the university’s actions were adequate to
                 protect NSF and the federal government. We did express our concerns to the
                 professor regarding his questionable research practices, including the apparent
                 duplicate publication.

                 Action by a Professor Averted Research Misconduct Finding

                 A Massachusetts university took a novel approach to resolve a research
                 misconduct allegation against one of its faculty members. It was alleged that
                 conclusions in two papers, written by the subject, were not substantiated by the
                 data. Specifically, the subject was alleged to have not done enough to account
                 for instrument artifacts that could account for the claimed results, and therefore
                 the results were intentionally misreported.

                 The university’s investigation committee found two significant problems with the
                 conclusions reported in the papers. The papers failed to disclose the extent
                 to which instrument artifacts can resemble valid research results. The papers’
                 conclusions were not supported by sufficient statistical proof that the claimed
                 results were not in fact the result of instrument artifacts. The committee asked
                 a consultant in statistical methodologies to review the subject’s approach, data,
                 and conclusions.




           48

                                                             OIG Semiannual Report    March 2009


The consultant concluded the subject’s design and analysis of his experiment
were not well developed from a statistical point of view, and thus, the subject’s
results should be considered preliminary and exploratory in nature. The
committee determined that the consultant’s findings raised doubts about the
subject’s conclusions.

The committee concluded that a preponderance of evidence showed there was
insufficient statistical basis for the subject’s conclusions in his papers, but the
subject did not commit research misconduct because he did not recklessly or
knowingly publish flawed results. It expressed concern that the two papers
remain in the literature without any indication of the problems with the findings.
It recommended that the subject develop a rigorous methodology for statisti-
cal reexamination of the data, consistent with the recommendations of the
consultant. If the reexamination demonstrates one or both of the papers need
supplementation, correction, or retraction, the subject should act accordingly.
The committee concluded that if the subject fails to do so, he would at that point
have committed an act of research misconduct under NSF policy, because he
would then know his results are flawed, and therefore he would then have a
culpable level of intent.

The subject completed the reëxamination requested by the adjudicator and is
preparing a new paper for publication; he also prepared a report for the adju-
dicator. His research was reviewed by his department chair, his departmental
advisor, and the vice president, who concluded the subject’s new analysis
satisfied the committee’s and consultant’s criteria. The adjudicator accepted
the subject’s manuscript and report as satisfactory and closed the case.

Management Implication Reports

NSF’s Transit Subsidy Program

OIG initiated an investigative review of NSF’s transit subsidy program to check
for the type of abuses cited by the Government Accountability Office in a 2007
report. The GAO investigation found that federal employees were fraudulently
selling their transit subsidy benefits, and identified potential systemic weak-
nesses that allow employees to abuse the program. Although NSF was not a
focus of the report, the agency was aware of it and quickly implemented several
improvements it suggested. For example, the NSF transit program attempted
to verify recipient travel costs by requesting employees to state the address
they commute from, but could not reach agreement with the employee union
bargaining unit regarding the issue.

We checked for potential overstatement of commuting costs by selecting subsi-
dy recipients who lived in Arlington County (where NSF is located) and claimed
more than their actual commuting cost over an 18-month period, based on our
estimates. Our review identified five individuals who claimed and received an
excessive amount of subsidies. These recipients used the extra amount for
personal transportation costs and for local trips on official business. Despite
receiving information about the proper use of the benefits when they applied to
the program, the recipients said they did not know they were not supposed to
use their transit benefits for official travel, nor did they know they could adjust
the amount they put on their SmarTrip card at the Metro station to take less than
                                                                                      49

Investigations


                 the claimed benefit when circumstances warranted it (e.g., vacations). Several
                 recipients said they did not know their commuting cost, and asked the program
                 staff to calculate it for them.

                 We recommended several changes to help NSF improve its management and
                 prevent potential abuse of the program. We also recommended that NSF take
                 appropriate action against the individuals found to have received excessive
                 subsidies, and require them to recertify to the correct amount of their commute
                 and reduce their benefit accordingly.

                 Improving NSF’s Management of Reviewer’s Conflicts of Interests

                 As noted previously,36 OIG recommended that NSF take several steps to
                 improve the information both the agency and reviewers exchange regarding
                 potential conflicts of interests (COIs). However, NSF informed us that it
                 would not implement any of our recommended changes for improving the
                 way it handles its reviewer COIs because it does not perceive any systemic
                 deficiencies affecting the current review process. Accordingly, we provided an
                 expanded explanation of the reasons for our recommendations, which focused
                 on ensuring that reviewers were apprised of situations that could be construed
                 as COIs and had ample opportunity to disclose potential conflicts to NSF.
                 Since ad hoc reviewers37 do not receive information about COIs and sign the
                 form that panel reviewers do, we believe it would be helpful to provide them
                 this same information and ask them to check a box affirmatively indicating they
                 do not have a COI that would prevent them from performing their review duties
                 objectively. Improving this information and disclosure process can enhance
                 NSF’s merit review system by ensuring its objectivity.

                 We also noted that our recommendations are consistent with NIH’s longtime
                 practices. NSF and NIH both ask the research community to review tens
                 of thousands of basic research proposals each year, and probably rely on a
                 substantially overlapping pool of reviewers. Thus, it is likely that there are many
                 NSF reviewers already familiar with COI processes embodied in the recom-
                 mendations we are making. NSF and NIH have the same interest in ensuring
                 their reviewers understand what constitutes a potential COI, and the same
                 interest in having those COIs disclosed to the program officials. NIH already
                 does all of the things we recommend that NSF do, and these are tried and
                 proven practices that we believe would serve NSF well in avoiding potential COI
                 problems with reviewers.

                 In our view, NSF’s commitment to the training and education of not only its
                 staff, but also the support it provides to the community it serves, should not be
                 premised on whether there is a legal requirement to do so. There is currently
                 a dearth of COI training resources available for reviewers, apart from the
                 standard COI briefing provided only to panel reviewers, which NSF can, and we
                 believe should, rectify.

                 NSF is reevaluating our recommendations and informed us it has sought the
                 advice of the Office of Government Ethics (OGE) regarding our recommended
                 revisions to the certification form the panelists receive that contains guidance
                 about COIs. To facilitate OGE’s assessment, we provided OGE with our
                 review and supplemental information.
                 36
                      September 2008 Semiannual Report, p.34.
	
           50
   37
                      “Ad hoc” reviewers provide their reviews solely electronically.

                                                           OIG Semiannual Report   March 2009



Meaningful Laboratory Records

Our investigations into allegations of fabrication and falsification invariably
involve an examination of laboratory records, including notebooks, instru-
ment logs, and instrumental measurements stored in electronic form. The
quality and completeness of these records in university laboratories varies
widely from lab to lab. In one recent case, a post-doctoral researcher
kept voluminous laboratory records at one institution, and sparse and
incomplete records at his next institution, reflecting the different emphases
of the faculty member in charge. Even in cases in which an individual’s
laboratory notebook appears adequate, linkages to instrument records and
electronic data stored on various computer systems are often incomplete.

Within investigations into allegations of research misconduct, we typically
assess the usefulness of laboratory notebooks and records by considering
the following:

Completeness: The record should describe all the activities of the
researcher, not just the “successful” ones.

Linkage: A written laboratory notebook should reference electronic
records by name and location in detail sufficient to locate the electronic
records.

Review: A regular (weekly or monthly) documented review of laboratory
notebooks by a supervisor or a faculty advisor can help ensure the quality
of laboratory records.

Accuracy: Records should be a contemporaneous chronology of all
pertinent laboratory activity and results, whether successful or not, and be
sufficient to support the reconstruction of activities by another competent
researcher.

Safekeeping: All laboratory records should be maintained in a secure
manner and backed up with copies stored in an alternate location.

In several recent cases, the ownership of data and laboratory records has
been questioned. For research sponsored by NSF, ownership resides with
the grantee, which is usually a university. Copies of records may be made
for faculty and students that leave the university, but the grantee is required
to maintain the original records for three years after the close of the award.




                                                                                   51

Investigations




           52

                                                        Statistical Data


                            Audit Data

          Audit Reports Issued with Recommendations
                    for Better Use of Funds

                                                        Dollar Value
A.   For which no management decision has been
     made by the commencement of the reporting           $1,945,240
     period
B.   Recommendations that were issued during the         $1,153,497
     reporting period
C.   Adjustments related to prior recommendations                $0
Subtotal of A+B+C                                        $3,098,737
D.   For which a management decision was made               $45,240
     during the reporting period
     i)     Dollar value of management decisions that
            were consistent with OIG recommenda-            $45,240
            tions
     ii)    Dollar value of recommendations that were
            not agreed to by management                          $0
E.   For which no management decision had been
     made by the end of the reporting period             $3,053,497
For which no management decision was made                $1,900,000
within 6 months of issuance




                                                                       HIGHLIGHTS
                                                                       Audit Data            53
                                                                       Investigations Data   63


                                                                       53
Statistical Data


                                Audit Reports Issued with Questioned Costs

                                                                     Number of             Questioned       Unsupported
                                                                      Reports                Costs             Costs
  A.      For which no management decision
          has been made by the commencement                                21              $67,736,891      $6,577,363
          of the reporting period
  B.      That were issued during the reporting
          period                                                           21               $2,819,627      $1,089,846
  C.      Adjustment related to prior                                       1                $64,730   38

          recommendations
  Subtotal of A+B+C                                                                        $70,621,248      $7,667,209
  D.      For which a management decision was
          made during the reporting period                                 16              $11,600,153      $6,576,171
          i) dollar value of disallowed costs                             N/A              $4,368,298          N/A
          ii) dollar value of costs not disallowed                        N/A              $7,231,855          N/A
  E.      For which no management decision
          had been made by the end of the                                  26              $59,021,095      $1,091,038
          reporting period
  For which no management decision was
  made within 6 months of issuance                                          5              $56,201,468        $1,192




38
     This adjustment reflects cost sharing that was not previously included in questioned costs.


                54
                                                        OIG Semiannual Report     March 2009


                   Audit Reports Involving Cost-Sharing Shortfalls

                                              Number      Cost-        At Risk of       Actual Cost
                                                of       Sharing      Cost Sharing        Sharing
                                              Reports   Promised        Shortfall        Shortfalls
                                                                       (Ongoing         (Completed
                                                                        Project)          Project)
A.   Reports with monetary findings for
     which no management decision has
     been made by the beginning of the          3       $2,694,452      $12,971         $1,053,536
     reporting period:
B.   Reports with monetary findings that
     were issued during the reporting           3       $1,353,360         $0           $834,556
     period:
C.   Adjustments related to prior
     recommendations                            0           $0             $0               $0
Total of reports with cost sharing findings
(A+B+C)                                                 $4,047,812      $12,971         $1,888,092
D.   For which a management decision
     was made during the reporting period:      3       $2,694,452      $12,971         $1,053,536
     1. Dollar value of cost-sharing short-
        fall that grantee agreed to provide     3       $2,694,452      $12,971         $1,053,536
     2. Dollar value of cost-sharing short-
        fall that management waived             3       $2,694,452         $0               $0
E.   Reports with monetary findings for
     which no management decision has           3       $1,353,360         $0           $834,556
     been made by the end of the reporting
     period




                                                                                  55

Statistical Data



     Status of Recommendations that Involve Internal NSF Management Operations

  Open Recommendations (as of 3/31/2009)
      Recommendations Open at the Beginning of the Reporting Period                                                69
      New Recommendations Made During Reporting Period                                                             28
      Total Recommendations to be Addressed                                                                        97
  Management Resolution of Recommendations                         39


      Awaiting Resolution                                                                                          28
      Resolved Consistent With OIG Recommendations                                                                 69
  Management Decision That No Action is Required                                                                   0
  Final Action on OIG Recommendations
      Final Action Completed                                                                                       45
  Recommendations Open at End of Period                                                                            52


                                        Aging of Open Recommendations40

      Awaiting Management Resolution:
         0 through 6 months                                                                                        24
         7 through 12 months                                                                                       0
         More than 12 months                                                                                       4
  Awaiting Final Action After Resolution
         0 through 6 months                                                                                        5
         7 through 12 months                                                                                       0
         More than 12 months                                                                                       19




39
   “Management Resolution” occurs when the OIG and NSF management agree on the corrective action plan that will be imple-
mented in response to the audit recommendations.
40
     “Final Action” occurs when management has completed all actions it agreed to in the corrective action plan.


                56
                                                              OIG Semiannual Report   March 2009



                                           List of Reports

NSF and CPA Performed Reviews
Report     Subject                                Questioned      Unsupported   Better Use    Cost
Number                                            Costs           Costs         of Funds      Sharing
                                                                                              At-Risk
09-1-001   Education Development Center                $3,346          $3,346           $0         $0
09-1-002   American Institute of Physics              $77,658              $0           $0         $0
09-1-003   BIOS Financial Capability Bermuda                 $0            $0           $0         $0
           Institute of Oceanographic Science
09-1-004   Abt Associates 2004 Incurred Costs                $0            $0           $0         $0
09-1-005   Exploratorium                             $340,204        $316,608           $0         $0
09-1-006   University of Arizona Effort               $16,548              $0           $0         $0
           Reporting System
09-1-007   CRDF U.S. Civilian Research &             $198,926              $0    $1,153,497        $0
           Development Foundation
09-2-001   NSF’s FY 2008 Financial Statement                 $0            $0           $0         $0
           Audit
09-2-002   NSF FY2008 Special Purpose                        $0            $0           $0         $0
           Financial Statement
09-2-003   NSF’s FY 2008 Management Letter                   $0            $0           $0         $0
09-2-004   Supplemental Funding                              $0            $0           $0         $0
09-3-001   IQCR of #08-1-004 University of                   $0            $0           $0         $0
           California - Berkeley
09-3-002   IQCR of #08-1-008 BIOS Incurred                   $0            $0           $0         $0
           Costs
            Total:                                   $636,718        $319,954   $1,153,497         $0




                                                                                      57

Statistical Data



                                                NSF-Cognizant Reports


   Report                               Subject                      Questioned    Unsupported   Cost Sharing
   Number                                                              Costs          Costs        At-Risk
  09-4-001         6-07 California Academy of Sciences                   $91,611       $52,749            $0
  09-4-002         6-07 Computing Research Association - DC                  $0             $0            $0
  09-4-003         6-06 Children’s Museum, Inc .- TX                         $0             $0            $0
  09-4-004         6-07 Children’s Museum of Houston, Inc. - TX              $0             $0            $0
  09-4- 005        12-07 American Anthropological Association - VA           $0             $0            $0
  09-4-006         9-07 Northern California Public Broadcasting,             $0             $0            $0
                   Inc. - CA

  09-4-007         12-06 American Mathematical Society - RI                  $0             $0            $0
  09-4-008         12-06 Mathematical Association of America - DC            $0             $0            $0
  09-4-009         6-07 Stark County Educational Service                     $0             $0            $0
                   Center - OH

  09-4- 010        6-06 San Diego Society of Natural History - CA            $0             $0            $0
  09-4-011         6-06 School District of Riverview Gardens - MO            $0             $0            $0
  09-4-012         6-07 School District of Riverview Gardens - MO            $0             $0            $0
  09-4-013         12-06 Bay Area Video Coalition, Inc. - CA                 $0             $0            $0
  09-4-014         9-06 ARCUS Arctic Research Consortium of                  $0             $0            $0
                   the U.S. - AK

  09-4- 015        12-06 Astrophysical Research Consortium - WA              $0             $0            $0
  09-4-016         9-07 National Ecological Observatory                      $0             $0            $0
                   Network, Inc. - DC

  09-4-017         12-07 UCAID University Corporation for Advanced           $0             $0            $0
                   Internet Development - OH

  09-4-018         12-07 CRDF U.S. Civilian Research and                     $0             $0            $0
                   Development Foundation - VA

  09-4-019         9-07 California Institute of Technology - CA              $0             $0            $0
  09-4- 020        12-06 AAAS American Association for the                   $0             $0            $0
                   Advancement of Science - DC

  09-4-021         9-07 WIYN Consortium, Inc. - AZ                           $0             $0            $0
  09-4-022         6-07 Kalispell School District - MT                       $0             $0            $0
  09-4-023         12-06 Consortium for Mathematics and Its                  $0             $0            $0
                   Applications, Inc. - MA

  09-4-024         12-07 Consortium for Mathematics and Its                  $0             $0            $0
                   Applications, Inc. - MA

  09-4- 025        6-06 Delta Research and Educational                       $0             $0            $0
                   Foundation - DC

  09-4-026         12-07 Horizon Research, Inc. - NC                         $0             $0            $0
  09-4-027         12-06 Santa Fe Institute - NM                             $0             $0            $0
  09-4-028         2-06 Astronomical Society of the Pacific - CA             $0             $0            $0
  09-4-029         6-06 Bigelow Laboratory for Ocean Sciences - ME           $0             $0            $0
  09-4- 030        6-07 Michigan State University - MI                       $0             $0            $0
  09-4-031         6-06 Liberty Science Center - NJ                          $0             $0            $0


              58

                                                             OIG Semiannual Report   March 2009



                                 NSF-Cognizant Reports (cont’d)
09-4-032   9-07 TMT Observatory Corporation - CA                 $0             $0                $0
09-4-033   12-06 Field Museum of Natural History - IL            $0             $0                $0
09-4-034   12-06 UNAVCO, Inc. - CO                               $0             $0                $0
09-4-035   12-07 UNAVCO, Inc. - CO                               $0             $0                $0
09-4-036   9-06 Fort Worth Museum of Science and                 $0             $0                $0
           History - TX

09-4-037   12-06 Donald Danforth Plant Science Center - MO       $0             $0                $0
09-4-038   9-06 The Concord Consortium - MA                      $0             $0                $0
09-4-039   6-07 REVISED Computing Research                       $0             $0                $0
           Association - DC

09-4-040   6-06 QEMN Quality Education for Minorities            $0             $0                $0
           Network - DC

09-4-041   9-06 Museum of Science and Industry, Inc. - FL        $0             $0                $0
09-4-042   12-06 Triangle Coalition for Science and              $0             $0                $0
           Technology - VA

09-4-043   12-07 Triangle Coalition for Science and              $0             $0                $0
           Technology - VA

09-4-044   12-07 Barrow Arctic Science Consortium - AK           $0             $0                $0
09-4-045   12-06 American Statistical Association - VA           $0             $0                $0
09-4-046   12-07 Rocky Mountain Biological Laboratory - CO       $0             $0                $0
09-4-047   12-07 American Geophysical Union - DC                 $0             $0                $0
09-4-048   7-06 Hugh Moore Historical Park &                     $0             $0                $0
           Museums, Inc. - PA

09-4-049   12-07 Denver Museum of Nature and Science - CO        $0             $0                $0
09-4-050   9-06 Girls Incorporated - NY                          $0             $0                $0
09-4-051   12-07 Woods Hole Oceanographic Institution- MA        $0             $0                $0
09-4-052   6-07 California Science Center Foundation - CA        $0             $0                $0
09-4-053   12-07 CUAHSI Consortium of University for the         $0             $0                $0
           Advancement of Hydrologic Science - DC

09-4-054   12-06 Drilling Observation and Sampling of the        $0             $0                $0
           Earth’s Continental Crust - UT

09-4-055   12-06 Intercultural Center for Research in            $0             $0                $0
           Education - MA

09-4-056   6-06 Institute for Advanced Study - NJ                $0             $0                $0
09-4-057   12-07 Shodor Education Foundation, Inc. - NC          $0             $0                $0
09-4-058   12-07 American Institute of Mathematics-CA            $0             $0                $0
09-4-059   9-06 Montshire Museum of Science, Inc. - VT           $0             $0                $0
09-4-060   8-06 San Jose Children’s Discovery Museum - CA        $0             $0                $0
09-4-061   8-06 Merck Institute for Science and                  $0             $0                $0
           Education - NJ

09-4-062   7-06 MSRI Mathematical Sciences Research              $0             $0                $0
           Institute - CA

09-4-063   9-06 North Carolina Museum of Life and                $0             $0                $0
           Sciences, Inc. - NC

09-4-064   9-06 Teachers Development Group - OR                  $0             $0                $0



                                                                                     59

Statistical Data



                                          NSF-Cognizant Reports (cont’d)
  09-4-065         6-06 Jackson Public School District - MS              $0    $0   $0
  09-4-066         6-06 The Vermont Institutes - VT                      $0    $0   $0
  09-4-067         9-07 NEES Consortium, Inc. - CA                       $0    $0   $0
  09-4-068         6-06 Maryland Academy of Sciences                     $0    $0   $0
  09-4-069         6-07 Maryland Academy of Sciences                     $0    $0   $0
  09-4-070         6-06 New York Botanical Garden                        $0    $0   $0
  09-4-071         6-07 New York Botanical Garden                        $0    $0   $0
  09-4-072         12-06 Stroud Water Research Center, Inc. - PA         $0    $0   $0
  09-4-073         9-06 LSST, Inc. - AZ                                  $0    $0   $0
  09-4-074         12-06 Optoelectronics Industry Development            $0    $0   $0
                   Association, Inc. - DC

  09-4-075         12-07 American Association of Physics                 $0    $0   $0
                   Teachers - MD

  09-4-076         12-07 American Institute of Biological                $0    $0   $0
                   Sciences, Inc. – DC

  09-4-077         12-07 Donald Danforth Plant Science Center - MO       $0    $0   $0
  09-4-078         6-05 Atlanta Independent School System - GA           $0    $0   $0
  09-4-079         12-06 Boyce Thompson Institute for Plant              $0    $0   $0
                   Research - NY

  09-4-080         6-06 Educational Broadcasting Corporation - NY        $0    $0   $0
  09-4-081         12-07 Academy of Natural Sciences of                  $0    $0   $0
                   Philadelphia - PA

  09-4-082         12-07 Anchorage Museum Association - AK               $0    $0   $0
  09-4-084         09-07 ARCUS Arctic Research Consortium of             $0    $0   $0
                   the U. S. - AK

  09-4-085         12-07 Archbold Expeditions - FL                       $0    $0   $0
  09-4-086         8-07 Association of American Geographers - DC         $0    $0   $0
  09-4-087         6-05 Family Communications Inc. - PA                  $0    $0   $0
  09-4-088         12-07 AACC American Association of Community      $12,734   $0   $0
                   Colleges - DC

  09-4-089         6-07 Allegheny Intermediate Unit – PA                 $0    $0   $0
  09-4-090         12-07 AAAS American Association for the               $0    $0   $0
                   Advancement of Science - DC

  09-4-091         6-06 NISS National Institute of Statistical           $0    $0   $0
                   Sciences - NC

  09-4-092         12-06 Franklin Institute - PA                         $0    $0   $0
  09-4-093         12-06 Monterey Bay Aquarium Research                  $0    $0   $0
                   Institute - CA

  09-4-094         12-06 Four Corners School of Outdoor                  $0    $0   $0
                   Education - UT

  09-4-095         6-06 Illinois State Museum Society - IL               $0    $0   $0
  09-4-096         12-07 American Chemical Society - DC                  $0    $0   $0
  09-4-097         12-07 American Physical Society - MD                  $0    $0   $0
  09-4-098         6-07 Children’s museum of Pittsburgh – PA             $0    $0   $0
  09-4-099         6-07 College Entrance Examination Board - NY          $0    $0   $0


             60
	
                                                                     OIG Semiannual Report     March 2009



                                 NSF-Cognizant Reports (cont’d)
09-4-100   12-07 Stroud Water Research Center, Inc. - PA                  $0              $0                $0
09-4-101   9-07 Chabot Space & Science Center – CA                        $0              $0                $0
09-4-102   9-07 Fermi Research Alliance, LLC – IL                         $0              $0                $0
09-4-103   12-07 Field Museum of Natural History – IL                     $0              $0                $0
09-4-104   5-07 Exploratorium – CA                                        $0              $0                $0
09-4-105   9-07 Consortium for Ocean Leadership – DC                      $0              $0                $0
09-4-107   9-07 IMI IODP Management International, Inc. - DC              $0              $0                $0
09-4-108   12-07 J. Craig Venter Institute – MD                           $0              $0                $0
09-4-109   5-07 JOI Joint Oceanographic Institutions – DC                 $0              $0                $0
09-4-110   6-07 Foundation for Blood Research - ME                        $0              $0                $0
           Total:                                                   $104,345         $52,749                $0




                                          Other Federal Audits

 Report                        Subject                          Questioned     Unsupported     Cost Sharing
 Number                                                           Costs           Costs          At-Risk
09-5-002    6-07 Rowan University - NJ                               $4,012         $4,012                  $0
09-5-008    6-07 Fisk University - TN                               $2,500              $0                  $0
09-5-022    6-07 State of Tennessee                                  $1,018             $0                  $0
09-5-026    6-07 Maricopa County Community College - AZ            $60,971         $40,096                  $0
09-5-038    6-07 Hamilton College - NY                               $4,102         $4,102                  $0
09-5-044    6-07 State of Mississippi Institutions of High          $44,149             $0                  $0
09-5-048    8-07 College of the Mainland - TX                      $110,629             $0                  $0
09-5-049    6-07 Georgetown University - DC                        $321,315             $0                  $0
09-5-050    6-07 Wildlife Trust, Inc. & Wildlife Preservation      $115,053             $0                  $0
            Trust International, Inc. - NY

09-5-052    6-07 Howard University - DC                          $1,125,491       $662,940                  $0
09-5-054    9 -6 Alabama A&M University - AL                      $279,689              $0                  $0
09-5-058    9-07 Smithsonian Institution - DC                       $5,780          $5,780                  $0
09-5-091    9-07 Blackfeet Community College - MT                   $3,660              $0                  $0
09-5-096    9-06 Fort Berthold Community College - ND                 $213            $213                  $0
            Total:                                               $2,078,564        $717,143                 $0




                                                                                               61
	
Statistical Data



                     Audit Reports With Outstanding Management Decisions

This section identifies audit reports involving questioned costs, funds put to better use, and cost
sharing at risk where management had not made a final decision on the corrective action neces-
sary for report resolution within six months of the report’s issue date. At the end of the reporting
period there were six reports remaining that met this condition. The status of recommendations
that involve internal NSF management is described on page 56.

   Report                            Subject                 Questioned    Unsupported   Better Use
   Number                                                      Costs          Costs       of Funds
  05-1-005         RPSC Costs Claimed FY2000 to 2002         $33,425,115       $0           $0
  06-2-011         University Indirects                          $0            $0        $1,900,000
  06-1-023         RPSC 2003/2204 Raytheon Polar Services    $22,112,521       $0           $0
                   Company
  07-1-003         Triumph Tech, Inc.                          $80,740        $1,192        $0
  07-1-015         Supplemental schedule to #06-1-023 RPSC    $560,376         $0           $0
  07-1-019         Abt Associates                              $22,716         $0           $0
                   Total:                                    $56,201,468     $1,192      $1,900,000




             62
	
                                                                                 OIG Semiannual Report             March 2009



                                            INVESTIGATIONS DATA 

                                       (October 1, 2008 – March 31, 2009)


Civil/Criminal Investigative Activities

Referrals to Prosecutors                                                          7
Criminal Convictions/Pleas                                                        5
Civil Settlements                                                                 3
Indictments/Information                                                           0
Investigative Recoveries                                                          $1,294,136

Administrative Investigative Activities

Referrals to NSF Management for Action                                            24
Research Misconduct Findings                                                      11
Debarments                                                                        6
Administrative Actions                                                            101
Certifications and Assurances Received41                                          10




                                             Investigative Case Statistics

                                                   Preliminary            Civil/Criminal              Administrative

Active at Beginning of Period42                              45                   80                             60
Opened                                                       92                   26                             45
Closed                                                       83                   29                             33
Active at End of Period                                      54                   76                             72




41
  NSF accompanies some actions with a certification and/or assurance requirement. For example, for a specified period, the 

subject may be required to confidentially submit to OIG a personal certification and/or institutional assurance that any newly 

submitted NSF proposal does not contain anything that violates NSF regulations. 

42
   Last period we reported 79 C/C cases. During this period, one C/C case was reopened.
	


                                                                                                                   63
	
Statistical Data




              Freedom of Information Act and Privacy Act Requests

Our office responds to requests for information contained in our files under the Freedom 

of Information Act (“FOIA,” 5 U.S.C. section 552) and the Privacy Act (5 U.S.C. section 

552a). During this reporting period:

•    Requests Received                   32
•    Requests Processed                  31
•    Appeals Received                    2
•    Appeals Upheld                      2

Response time ranged between 7 days and 18 days, with the median around 14 days and the
average around 14 days.




            64
	
                                                            Appendix
                   Performance Report

Goal 1
Promote NSF Efficiency and Effectiveness

1. I	 dentify and implement approaches to improve product
      quality and timeliness.

   •		 Initiate a process and develop a time-phased plan to con-
       vert to electronic audit workpapers.
	
   •		 Develop a policy for risk-based audit supervisory review and 

       report signature and transmittal, and associated audit report 

       content and presentation templates for: 1) internal perfor-
       mance reports performed by OIG staff and 2) performance 

       grant audit reports performed by OIG or contractors.
	
   •		 Identify new policies or revisions to existing policies neces-
       sary to comply with the 2007 edition of Government Auditing 

       Standards and develop a timetable for issuing/revising these 

       policies.
   •		 Develop supplemental procedures for the policy on audit 

       report issuance and distribution.
	
   •		 Conduct a training session for contractors to provide guid-
       ance and examples of quality audit reports.
	
   •		 Identify key procurement milestone dates for all contract 

       audits and initiate a process to track procurement mile-
       stones for all contract audits. 

   •		 Complete most OIG audits within one year of conducting the
       planning conference.
   •		 If budget constraints allow, start all jobs designated “must 

       do” within audit planning year.
	
   •		 Identify all jobs over one-year old as of April 1 and reduce 

       backlog by 100%.
	
   •		 Identify and monitor quarterly workload targets for each 

       audit team.
	
   •		 Discuss performance-based contracting with the Contract-
       ing Officer; present options on how to include performance-

       based language in our contracts.
	
   •		 Complete evaluations of contractor-performed audits issued 

       for March 31 and September 30 semiannual reporting 

       periods.
	
   •		 Review Office of Investigations (OI) operations for compli-
       ance with ECIE standards of performance.
	
   •		 Review Investigations Manual and forms.
   •		 Prepare a draft administrative manual for OI administrative
       functions.


                                                                         65
Appendix


            Audits. In an ongoing effort to improve audit timeliness and quality, OIG
            developed plans and target dates to convert to electronic workpapers; issued
            five new or revised audit policies and procedures; provided guidance to contract
            auditors on quality audit reports; initiated a process to track the contract-audit
            procurement process electronically; developed options for the inclusion of
            performance-based language in audit contracts; completed evaluations of
            contractor-performed audits; and monitored milestone dates to improve the
            management of the audit process.

            To advance its goal of converting from paper to electronic workpapers, a
            technology that has been adopted by most other OIGs and professional audit
            organizations, the Office developed an electronic workpaper procurement time-
            line. However, due to budget constraints, office-wide conversion to electronic
            workpapers has been postponed. The selected software package requires an
            initial investment of over $100,000, annual fees of 20 percent of the base cost,
            and additional expenditures to train staff.

            The Office issued or revised five audit policies during the last year in order
            to comply with the 2007 edition of Government Auditing Standards, foster
            the quality and timeliness of audit reports, and standardize audit procedures.
            Specifically, OIG revised its policies on Independence, developed supplemental
            procedures for the policy on Report Issuance and Distribution, and issued
            new policies on Using the Work of Specialists; Assessing the Reliability of
            Computer-Processed Data; and Risk-Based Audit Supervisory Review and
            Draft and Final Report Transmittals. The last of these policies also included
            examples of report content and presentation templates for audits performed
            by OIG staff. In addition, the Office developed target dates for revising other
            policies and procedures, such as those on Quality Control and Workpaper
            Standards, to comply with the most current version of the Government Auditing
            Standards.

            To help independent public accounting (IPA) firms that we contract with perform
            quality audits in a timely fashion, we held a training session for their employees
            in December 2008. OIG auditors analyzed the format and presentation of
            a well-written report and discussed how to convey audit findings effectively.
            The Office hopes that by clarifying its expectations for quality audit reports
            and providing well-written examples, it will be able to streamline the contract
            auditing process and help contract auditors produce high-quality reports within
            agreed-upon timeframes.

            OIG also expanded its audit tracking system to better track contracted audits
            from the solicitation to issuance stages. The new tracking parameters will
            capture the time spent in the preparation of solicitations, evaluation of the bids,
            and finalization of the contracts. It will enable the Office to monitor the total
            time required to fulfill the administrative tasks involved in contracting and inform
            our efforts to streamline the process. In addition, to improve the quality and
            timeliness of audits performed by contractors, the Office considered options for
            the inclusion of performance-based language in its contracts. Performance-
            based criteria could provide incentives for improved audit work and/or penalties
            if the work is late or of lesser quality. OIG already collects information on the
            performance of contractors by asking audit staff to evaluate the quality of the


     66
	
                                                              OIG Semiannual Report    March 2009


product or service, economy, timeliness of performance and business relations.
Such feedback on contractor performance is an essential part of quality assur-
ance and can be an important consideration during future selection processes.

During the performance period, the Office established four performance goals
to reduce the time from inception to issuance of audits and promote timeliness:
1) the completion of each audit within one year of the planning conference, 2)
100 percent reduction of the backlog of audits over one-year old as of April 1,
2008, 3) starting all top-priority jobs within the audit planning year to the extent
resources allow, and 4) continued tracking of milestone dates from the begin-
ning of an audit to its issuance.

The Office successfully completed 75 percent of the audits performed by
contract auditors within one year, a significant increase from last year, when the
one-year completion rate was 56 percent. However, due to staffing constraints
and unexpected assignments that took priority over planned audit work, only
one of the three (33 percent) audits performed by OIG staff were completed
within one year, a decrease of 24 percentage points from last year. At the
end of the period, new responsibilities associated with the enactment of the
American Recovery and Reinvestment Act of 2009 further contributed to the
decrease in the one-year completion rate for OIG-performed audits.

OIG succeeded in eliminating the backlog of audits that were more than
one year old as of April 1, 2008, and started top-priority jobs within the audit
planning year, to the extent the budget allowed. Finally, to encourage timely
completion of audits the Office continued to track projected and actual dates
for milestones such as planning, field-work verification and report-writing
conferences and for the issuance of draft and final reports. This monitoring
enabled timely corrective action when interim milestones were not met and thus
facilitated the completion of audits within one year of their start dates.

Investigations. The Office implemented substantive improvements in inves-
tigations product quality, timeliness, and value to NSF during this performance
period:

   •		 We reviewed our Investigations Manual and made necessary changes
       to include new policies and “best practices” identified by staff.
   •		 After careful analysis of internal processes and procedures, we com-
       piled a list of administrative duties within a newly developed Office of
       Investigations (OI) Administrative Practices Manual.
   •		 After undergoing a successful external peer review last year, we began
       preparing to conduct an internal peer review in this performance
       year. Our internal peer review will follow the same the standards of
       performance and guidelines used by the Inspector General community
       for external reviews.
   •		 We have made several improvements to the reports generated by the
       OIG Knowledge Management System to track the available data and
       statistics.
   •		 We reviewed our intake process to ensure cases are assigned appropri-
       ately when opened.



                                                                                       67
	
Appendix


            Despite a significant increase in the number and gravity of Reports of Investiga-
            tions and Management Implication Reports during this past year, the internal
            management controls we have established continue to operate effectively in
            ensuring the quality of all reports and work products.

            2.		 Strengthen our focus by refining approaches for selecting work and
                 setting priorities.

               •		 Develop and execute the annual audit plan.
               •		 Document decision for final selection of audits included in the audit plan.
               •		 Based on funding by Directorate and Division, develop a risk analysis of
                   key NSF programs and operations for use in audit planning.
               •		 Review KMS report directory to identify improvements in the types of
                   investigative reports available.
               •		 Review preliminary (P-file) initiation process and ensure that administra-
                   tive (A) and investigative (I) cases are opened as appropriate.

            Audits. OIG issued its annual Audit Plan on September 30, 2008, and has
            been executing audits in the Plan during FY 2009. For reference in future audit
            planning, the Office also documented the decision process used to select the
            audits in the Plan. To improve our risk-based process for selecting audits,
            we developed a new methodology this year to identify risk in NSF programs
            and operations for each of NSF’s directorates and divisions. Specifically, we
            analyzed risk factors for an NSF-wide program budgeted in FY 2008 at more
            that $55 million. Future audits of NSF programs, like audits of grantees, will be
            based on risk. This approach to NSF awards, programs and operations helps
            the Office use its limited resources to perform audits that are likely to have the
            greatest impact.

            Investigations. OIG has undertaken an initiative to make greater use of
            technology to improve its approaches to selecting work and setting priorities.
            To advance our efforts to convert to a completely electronic system, we imple-
            mented new procedures encouraging internal and external electronic transmis-
            sion of documents. This made our processing of cases more cost-effective and
            greatly facilitated data analysis.

            We also developed two new action reports within the Knowledge Management
            System to help ensure consistent recommendations regarding case actions.
            As part of these efforts, and in preparation for peer review, we once again
            reviewed our case processing systems to ensure that we are effectively and
            efficiently evaluating allegations and developing appropriate resolutions.


            Goal 2
            Safeguard the Integrity of NSF Programs and Resources

            1. 	Detect and address improper, inappropriate, or illegal activities.

               •		 Implement a Civil/Criminal unit-wide approach to proactively detecting
                   areas of high risk for fraud.



     68
	
                                                             OIG Semiannual Report     March 2009


   •		 Develop a proactive review process to explore issues associated with
       administrative investigations.
   •		 Ensure effective compliance plan oversight.
   •		 Utilize technology to facilitate the work of investigators.

Over the past year, OIG launched a number of proactive initiatives aimed
at detecting fraud and uncovering instances of internal misconduct. We
conducted a series of brainstorming sessions that resulted in proactive plans
from each of the investigative sections (administrative, civil/criminal, and legal).
These sessions and the plans resulted in the initiation of numerous successful
proactive reviews. To enhance our proactive efforts, we recently assigned one
member of the investigation management team to focus on the process and
ensure that (1) they are a priority for staff and managers, (2) reviews that are
productive are expanded while ones that are less fruitful are curtailed, and (3)
promising ideas for new projects are ready to start as soon as other reviews are
completed.

These efforts contributed to a significant increase in the number of internal
misconduct investigations performed. Through these investigations, OIG
was able to identify a number of systemic issues and recommend that the
agency update its policies and procedures to correct the problems. Several
of these investigations involved senior agency staff and resulted in a number
of disciplinary actions being taken by NSF. In addition, our cases grew in size
and complexity, as reflected by the number of multi-agency investigations we
participated in as well as the number of civil settlements and criminal prosecu-
tions during this period. We also managed an increasing number of substantive
research misconduct investigations, resulting in 17 Reports of Investigation
being sent forward for agency adjudication, identification of questionable
research practices, and in-depth discussions with some institutions about the
need to improve ethics training for their researchers.

Our office successfully monitored six compliance plans covering institutions
that were subjects of OIG investigations. As part of the resolution of their
respective investigations, each institution agreed to meet stringent requirements
to remedy the systemic weaknesses responsible for the problems identified in
our investigations. In every case, all milestones were met. Reports required
by the plan were received, reviewed, and coordinated with NSF. In one case,
extensive OIG effort was expended bringing an institution into compliance with
its corrective plan. During this performance year, two investigators completed
training on the development and monitoring of compliance plans and became
Certified Compliance and Ethics Professionals. This training provided a
comprehensive understanding of the regulations and legal issues related to an
effective compliance process and bolstered our efforts to promote organiza-
tional integrity through the enforcement of effective compliance programs.

Over this reporting period, we also procured forensic computer equipment
and software to assist in expanding our abilities to search electronic data and
secure electronic evidence.




                                                                                       69
	
Appendix


           2. 	Strengthen OIG proactive activities.

                •		 Identify and maintain focus on high-risk awardees.
                •		 Conduct brainstorming sessions to generate new proactive ideas and to
                    refine current risk areas.

           As indicated above, the Office continued to enhance its proactive activities,
           conducting a series of brainstorming sessions that resulted in five proactive
           reviews. We developed a unit-by-unit proactive review plan based upon the
           risk areas identified by our investigative staff. These proactive reviews proved
           effective not only in opening new investigations, but also in identifying systemic
           issues that were raised to NSF in our Management Implication Reports.

           3.     Refine preliminary financial investigative steps.

                •		 Improve initial techniques for financial analysis in potential fraud cases.
                •		 Leverage existing audit and investigative information.

           OIG improved its financial analysis in fraud investigations by increasing the
           number of staff trained on financial matters. Two staff members completed
           the Certified Fraud Examiner (CFE) program, raising the percentage of our
           investigators who have attained CFE certification to nearly 20 percent.

           We identified a contract firm capable of providing the financial analysis needed
           for specific types of investigations, and we developed a uniform process for
           initiating financial analysis. This contract expedited our work by facilitating data
           analysis, providing on-the-job training for our staff, and allowing us to stretch
           staff resources to address our expanding case loads.

           We further refined our method for analyzing the financial data we receive
           from grantees to allow us to conduct a faster assessment of cost categories,
           identify potential fraud indicators, and enable more-detailed analysis. We also
           increased the number of cases in which we reviewed prior A-133 audit reports,
           and investigators coordinated with auditors in NSF and other OIGs to leverage
           available audit and investigative information and identify potentially high-risk
           programs and grant recipients.


           Goal 3
           Utilize OIG Resources Effectively and Efficiently

           1.	 Strengthen and utilize the professional expertise and talents of all
               OIG staff.

                •		 Analyze the previous year’s biennial employee survey results and develop
                    and implement corrective actions for any problems identified.
                •		 Make system enhancements to KMS, including the development of a
                    fund-control tracking system for contract audits.
                •		 Conduct KMS and other IT training, as necessary.
                •		 Update KMS user manuals.
                •		 Provide prompt, effective responses to requests for IT support.
                •		 Identify and replace outdated computer systems.

     70

                                                              OIG Semiannual Report    March 2009


   •     Test the automated calling system for continuity of operations planning and
         testing.
   •		   Conduct at least one new employee orientation.
   •		   Develop and implement annual audit training plan.
   •		   Conduct exit surveys with all exiting staff to obtain feedback on any
         issues and areas for office improvement.
   •		   Conduct all-hands Office of Audit meeting once a quarter. Audit staff
         will be invited to suggest agenda topics to their respective SAMs or
         DAIGA.
   •		   Conduct meetings of the Audit Employee Survey Advisory Group and
         the AIGA on a quarterly or other mutually agreed upon schedule to
         discuss issues of continuing concern among audit staff.
   •		   Complete training identified in Individual Development Plans.
   •		   Maintain and verify investigative training records for compliance with
         investigative core competency requirements.
   •		   Provide presentations to OI staff on material learned and effectiveness
         of courses following any training attended.
   •		   Participate in core competency training for investigators to increase staff
         knowledge.
   •		   Revise OI position descriptions to ensure consistency and provide a
         career ladder for advancement.

A committee of OIG staff analyzed the last biennial employee survey, which
was conducted in February 2008, and found that our employees were generally
satisfied with their jobs. While no responses to questions fell below a neutral
rating, the panel recommended that the Associate IGs who headed the Audit
and Investigations offices conduct their own analyses of the responses from
their respective staffs and that the IG request staff suggestions for ways to
increase the opportunity for them to use their skills. The AIGs and IG followed
the recommendations and held subsequent meetings to discuss the issues with
OIG staff members.

We continued to make numerous enhancements to our Knowledge Manage-
ment System to improve tracking and reporting on costs associated with
the American Recovery and Reinvestment Act of 2009, contract monitoring,
training, allegation intake, performance reporting, internal workflows and com-
munication, analysis of research misconduct findings, financial recoveries, and
coordination with NSF management. IT support received an above average
rating of 4.13 (out of a maximum possible score of 5) on the employee survey.
The IT specialists supported audit and investigative activities through updates
on technology issues at monthly staff meetings, focused training sessions,
queries of NSF databases, and a variety of customer support/troubleshoot-
ing activities. They also replaced 30 aging desktop computers, drafted
an IT security policy, tested our emergency notification system, supported
video-conferencing sessions with our Denver office, and provided technical
assistance in the planning and performance of our annual review of NSF’s IT
security program.

Audit. To comply with the Government Auditing Standards requirement that all
government auditors complete 80 hours of continuing professional education
(CPE) every two years, all auditors identified in their Individual Development
Plans courses that would both fulfill their CPE requirements and enhance their

                                                                                       71

Appendix


           professional expertise. The Office of Audit tracked training hours for each
           audit staff member and approved a training plan that ensured that all auditors
           complied with the CPE standards.

           The effort to continually upgrade operations not only improves work methods,
           but also raises morale, fosters loyalty, and strengthens the professional
           expertise of OIG staff. During the year, the Office of Audit continued to obtain
           feedback on employee satisfaction by means of (1) quarterly all-Audit meetings
           to improve communications among Audit teams and discuss issues of common
           interest; (2) quarterly meetings of the Employee Survey Advisory Group and
           the AIGA to follow up on recommendations in the 2008 Employee Survey and
           discuss issues of continuing concern; and (3) exit interviews with departing
           Audit staff to obtain ideas on improving working conditions.

           Investigations. All staff in the Office of Investigations prepared Individual
           Development Plans (IDP) that identified training opportunities deemed appropri-
           ate for professional development and career enhancement. We maintained
           and verified investigative training records for compliance with our core
           competency requirements. Our review showed that all training certificates were
           entered into our training system electronic records, although only 80 percent of
           IDP-proposed training was able to be accomplished. During this performance
           period, all position descriptions were reviewed and revised to ensure they
           are consistent and that they provide an adequate career ladder for employee
           advancement. The Office provided internal training at five Investigations staff
           meetings. While our outreach and training goals continue to remain priorities,
           the lack of additional resources in the last few budget cycles has adversely
           affected these essential functions. We have limited our outreach to only larger
           organizations and/or groups in the greater D.C. area. It has also become more
           difficult to meet the staff’s training and development goals, and not all staff
           members achieved their IDP goals.

           2.	 Improve communication and collaboration within OIG.

              •		 Ensure information exchange and referrals among the Audit, Investiga-
                  tion, and Administrative units.
              •		 Share information about audit, investigative, and administrative activities
                  at all-staff meetings.
              •		 Maintain Investigations/Audit/Administrative teams and monitor their
                  performance of OIG/NSF liaison duties.
              •		 Conduct periodic meetings between audit and investigation managers to
                  discuss cross-cutting issues, mutual concerns, and cooperative efforts.
              •		 Use office-wide committees for completion of various OIG projects and
                  activities.
              • Conduct periodic informational meetings for administrative staff from
                  each OIG unit.
              •		 Ensure staff participation in the development and implementation of the
                  annual OIG Performance Plan.
              •		 Increase OI staff’s utilization of electronic review and mailing for cor-
                  respondence.
              •		 Hold brown bag lunch discussions of topics affecting OIG.
              •		 Improve effectiveness of OI meetings.
              •		 Address issues for OI highlighted in employee survey.

     72

                                                              OIG Semiannual Report    March 2009


Information sharing among the Audits, Investigations, and Administrative units
that comprise OIG continued to be more open and effective than in years
past. All units have contributed to improved communication and collaboration
within OIG through participation in formal and informal meetings, activities,
and training events. Audit and Investigations staff met three times this year
to discuss issues of mutual concern and to monitor matters that have been
referred between the offices. Referrals were assessed during these meetings,
and action was subsequently taken on any deemed to be significant. Audit staff
initiated five referrals, while Investigations staff, who were focused principally
on internal investigations, saw a decline in referrals for Audit to two matters.

OIG staff worked together to provide in-house training and accomplish office-
wide initiatives. During the performance period, employees made presenta-
tions at seven of the ten all-hands meetings to share information about their
work. Investigators provided briefings to ensure broad understanding within
OIG of how cases are handled and the results obtained in recent investigations.
Auditors presented findings of audits or reviews of various NSF programs and
awards, such as an urban school district that had mishandled NSF funds, the
inadequate dissemination of the results of NSF research, and the financial is-
sues concerning post-retirement benefits at NSF’s Federally Funded Research
and Development Centers. Each staff meeting also contained updates from
our IT support professionals, reports on our liaison activities with NSF director-
ates, and updates on current legislative and IG community activities. OIG staff
members were also active on office-wide committees to plan activities such as
the annual office retreat and to develop the annual OIG Performance Plan.

Investigations conducted five meetings for training purposes, with informative
presentations targeted to OIG staff, as well as brown-bag lunches for staff to
discuss issues relevant to the entire office. The scheduling and formatting of
the bi-weekly Investigations meetings were modified to be responsive to the
employee survey results, allow managers to discuss more specific subjects
with their staff, and provide the staff an additional forum to present ideas and
concerns.

We significantly increased the use of electronic routing and approval processes
for reviewing documents such as request letters, closure notifications and
Reports of Investigation prior to transmitting them. This has resulted in
streamlining the process and reducing the resources used to copy and prepare
for mailing.

There was strong participation in the OIG liaison program, in which staff
members from different OIG units are paired to establish an ongoing relation-
ship with their designated NSF directorate, division, or office. OIG staff initiated
approximately 30 liaison program visits to NSF’s science directorates and
business/administrative offices during the performance year.

3.	 Ensure effective external communications and consultation with our
    stakeholders.

•		 Produce timely external reports on OIG results and issues.
•		 Provide testimony and other requested information to congressional com-
    mittees.

                                                                                       73

Appendix


           •		 Provide briefings to the NSB, Congress, OMB, NSF, and others regarding
               OIG plans, priorities, and progress.
           •		 Prepare timely OIG budget requests.
           •		 Issue two OIG Newsletters by email.
           •		 Review statistical section of Semiannual Report for usefulness and to
               ensure it includes all statutory reporting requirements.
           •		 Update NSF leadership regularly on OIG activities and concerns.
           •		 Participate in committees and task forces, as appropriate.
           •		 Collaborate with federal and international agencies to advance common
               audit, investigative, and management goals.
           •		 Provide leadership and active participation in the IG community.
           •		 Track and coordinate GAO audits of NSF programs.
           •		 Conduct active outreach to NSF and the research community, and particu-
               larly to professional associations of higher learning.
           •		 Track usage of OIG website.
           •		 Increase capability of OIG website to accommodate the use of multimedia
               informational tools such as videos, podcasts, and links to relevant news
               stories.
           •		 Post audit reports to OIG website within required timeframes after issuance.
           •		 Ensure that FOIA/PA requests are processed in a timely manner.
           •		 Submit article(s) for publication in appropriate journals.
           •		 Provide briefings to NSF staff during initial orientation.

           During the past year, OIG kept stakeholders apprised of its work by submittng
           all reports for which it was responsible, including two Semiannual Reports
           to Congress, NSF’s Financial Statement Audit Report, the FY 2008 Federal
           Information Security Management Act (FISMA) evaluation, and a Management
           Challenges Letter. These reports were issued within the timelines prescribed
           either by law or by specified due dates. OIG also submitted a FY 2010 budget
           request in accordance with OMB and Congressional requirements. OIG
           leadership met with Congressional staff on various NSF issues and responded
           to Congressional requests for information on matters such as NSF’s follow-up
           on an OIG audit, the agency’s handling of investigative matters, unimplemented
           audit recommendations, and dissemination of the results of NSF-funded
           research. The Interim IG testified to Congress in March 2009 about OIG’s
           oversight of NSF’s Recovery Act funds, and we responded to two inquiries from
           our Congressional oversight committees requesting additional information on
           the subject.

           OIG staff and/or the independent auditor of NSF’s financial statements
           gave briefings at each meeting of the Audit and Oversight Committee
           of the National Science Board to keep it apprised of progress on the
           audit and on corrective actions taken by NSF in response to previous
           financial audits. OIG staff also presented the office’s proposed budget
           submission, annual audit plan, Recovery Act planning, and reports on
           significant investigations and audits. The AIG for Investigations provided
           briefings to the Committee in closed session throughout this performance
           period. One electronic newsletter was provided to NSF stakeholders this
           year as OIG’s Recovery Act preparations forced postponement of the
           second newsletter. However, the IG and Deputy IG continued to conduct


     74

                                                           OIG Semiannual Report    March 2009


briefings for the NSF Director and Deputy Director at regular intervals
to apprise them of OIG’s activities and discuss opportunities to improve
agency operations.

OIG staff continued to be actively involved in NSF committees. For example,
auditors and investigators participated in five working groups that NSF’s Of-
fice of Budget, Finance and Award Management established to address new
requirements in the American Recovery and Reinvestment Act of 2009, and the
Deputy IG sat on the NSF ARRA Steering Committee. Audit staff members
were also active in the Audit Coordinating Committee, which included key NSF
staff and met to resolve coordination issues associated with the financial state-
ment audit. The Senior Policy and Operations Advisor served as an executive
secretary to the Audit and Oversight Committee of the National Science Board.
The Deputy IG participated in quarterly Division Director retreats and served
as the OIG liaison for the agency’s Office of Equal Opportunity and Office
of Legislation and Public Affairs. OIG staff also gave briefings at every NSF
Program Managers Seminar and NSF New Employee Orientation. Finally,
we conducted numerous liaison events to directorates and divisions of NSF.
Audit and Investigations staff partnered for more than thirty outreach visits
to NSF’s science directorates and business/administrative offices during the
performance year.

Audit staff worked closely with Office of Management and Budget (OMB) on
a variety of projects, including addressing the results of the 2007 Report on
Annual Single Audit Sampling Project, which found that the independent audi-
tors who performed Single (A-133) Audits needed better guidance and training.
NSF OIG auditors were active in one of the OMB workgroups established
to improve the quality of the A-133 audits. In addition, audit staff provided
comments on drafts of revisions to the following OMB Circulars: A-50 (Audit
Follow-up), A-136 (Financial Reporting Requirements), A-127 (Financial Man-
agement Systems), and A-133 Compliance Supplement (which provides guid-
ance on how to perform A-133 audits). Auditors also met with OMB to review
how it determined agencies’ scorecard ratings on elements of the President’s
Management Agenda.

As scientific research continued to involve an increasing number of international
collaborations, it became ever more important that those who fund and perform
research understand the rules, regulations, best practices, and research ethics
that exist in other countries. The NSF OIG has been at the forefront of this
effort. This year an auditor attended a workshop sponsored by the European
Science Foundation, which discussed methods for ensuring quality in ex-post
evaluation studies and for developing common indicators for evaluating public
research organizations. Audit staff also met with representatives from the Na-
tional Science Foundation of Ireland and the Research Councils of the United
Kingdom to discuss oversight of grantees’ uses of public funds. Auditors plan
to visit the Research Councils during the upcoming performance year to learn
first-hand about the Funding Assistance Program, which determines whether
public research funds are properly safeguarded and used only for the purposes
Parliament intended. Investigators presented to the international community
on four occasions, addressing groups of individuals involved in the funding and
oversight of research in different countries around the world. Senior OIG staff


                                                                                    75

Appendix


            also gave briefings to visiting delegations of government officials and scientists
            from various countries. These activities represented a concerted effort by OIG
            to increase international understanding of accountability in the funding and
            conduct of research and to share information and practices with the organiza-
            tions charged with managing research enterprises.

            OIG also continued to participate actively in committees, projects, and events
            in the IG community. The IG served as the Vice-Chair of the Executive Council
            of Integrity and Efficiency through December. Investigative staff provided
            leadership within the IG community on the National Procurement Fraud Task
            Force, its Grant Fraud Subcommittee, the Inspector General Academy, and
            the Federal Law Enforcement Training Center. As a member of the Grant
            Fraud Subcommittee, we participated in the development and issuance of a
            white paper identifying the importance of monitoring federal grants in the same
            context as federal contracts. Several of our best practices were identified in
            this report. The NSF IG led the Misconduct in Research Working Group of the
            Council of Inspectors General on Integrity and Efficiency, with support from
            our research misconduct staff. The Group met twice in 2008 to address a
            significant research misconduct case at another agency, efforts by the Global
            Science Forum to coordinate international responses to research misconduct,
            and review case studies. Both meetings were well attended, drawing OIG
            officials from a number of agencies. By sharing practices and policies, as well
            as creating posters, hand-outs, fact sheets, and slide shows, we expanded our
            outreach to other federal OIGs overseeing grant programs.

            Auditors continued to provide leadership in interagency groups that foster
            common audit goals. For example, the AIG for Audit was the co-chair
            of the Financial Statement Committee of the Federal Audit Executive
            Council. Senior Audit staff participated routinely in the Council’s Com-
            mittee on Human Resources activities, such as developing an IG com-
            munity presentation to students about careers in auditing. Auditors also
            regularly attended meetings of the Financial Statement Audit Network,
            a workgroup of the Council, to keep apprised of proposed accounting
            standards and requirements for federal financial statement audits. Audit
            staff provided frequent guidance to other OIGs on how to develop pro-
            grams to review Single Annual Audits (A-133 audits) and on issues such
            as wage garnishment and developing position descriptions for hiring audit
            staff. In total, Audit staff participated in about 40 formal meetings and
            conversations with other OIGs during the past year.

            Our staff published two articles in professional journals. An investigator and
            an auditor co-authored an article entitled “International Efforts toward Financial
            and Programmatic Accountability” that appeared in the Spring/Summer 2008
            edition of The Journal of Public Inquiry. It focused on the need for account-
            ability in research funds, integrity in research, and evaluation in research, and
            discussed international accountability activities being undertaken in these
            topics. In addition, the IG co-authored an article that appeared in an April 2008
            edition (Volume 452) of Nature magazine entitled “Investigating International
            Misconduct.” It discussed incipient efforts towards creating a system that other



     76
	
                                                          OIG Semiannual Report    March 2009


countries and research entities could voluntarily implement to better handle
investigations of research misconduct both intra-national and international. The
IG also wrote and recorded a companion Podcast for her Nature article for a
segment called The Podium.

The Audit staff has continued to track and coordinate Government Account-
ability Office (GAO) audits of NSF programs during this period, and we
provided comments on a GAO draft report, Designated Federal Entities; Survey
of Governance Practices and the Inspector General Role (GAO-09-270), which
included survey responses from the heads of designated entities and their
IGs. NSF is a federal designated entity, and both the agency and the NSF IG
responded to the survey.

OIG continued to conduct active outreach to the research community
by delivering over 20 presentations to national educational associations,
universities, professional associations, and groups of NSF grant recipi-
ents. However, due to resource constraints, we had to limit our outreach
activities to presentations to large groups, such as professional associa-
tions, and those in close proximity to the D.C. area. We also maintained
effective communications with the public in general through prompt
responses to requests under the Freedom of Information Act, in which we
met 100 percent of our processing milestones, and through posting audit
reports within one day of issuance, as prescribed by law. Our website
registered 223,000 “hits” during this period.




                                                                                   77

Appendix




                                    Acronyms

           AD       NSF Assistant Director
           AIG      Associate Inspector General
           ARRA     American Recovery and Reinvestment
           CAREER   Faculty Early Career Development Program
           CAS      Cost Accounting Standards
           CBA      Collective Bargaining Agreement
           CIGIE    Council of Inspectors General on Integrity and Efficiency
           CISE     Computer and Information Science and Engineering Directorate
           COI      Conflict of Interest
           COV      Committee of Visitors
           DACS     Division of Acquisition and Cost Support
           DCAA     Defense Contract Audit Agency
           DD       Deputy Director
           DGA      Division of Grants and Agreements
           DIAS     Division of Institution and Award Support
           DoD      Department of Defense
           DoE      Department of Energy
           DoJ      Department of Justice
           ECIE     Executive Council of Integrity and Efficiency
           EPSCoR   Experimental Program to Stimulate Competitive Research
           FFRDC    Federally Funded Research and Development Centers
           FISMA    Federal Information Security Management Act
           GAO      Government Accountability Office
           GAS      Government Auditing Standards
           GPRA     Government Performance and Results Act
           HHS      Department of Health and Human Services
           IG       Inspector General
           MIRWG    Misconduct in Research Working Group
           MREFC    Major Research Equipment and Facilities Construction
           NIH      National Institute of Health
           NSB      National Science Board
           NSF      National Science Foundation
           OEOP     Office of Equal Opportunity Programs
           OIG      Office of Inspector General
           OMB      Office of Management and Budget
           OPP      Office of Polar Programs
           OPM      Office of Personnel Management
           PCIE     President’s Council on Integrity and Efficiency
           PI       Principal Investigator
           PFCRA    Program Fraud Civil Remedies Act
           SBIR     Small Business Innovation Research
           STC      Science and Technology Centers
           USAP     United States Antarctic Program




     78

                                                             OIG Semiannual Report   March 2009




                       Reporting Requirements
Under the Inspector General Act, we report to the Congress every six months
on the following activities:

Reports issued, significant problems identified, the value of questioned costs
and recommendations that funds be put to better use, and NSF’s decisions in
response (or, if none, an explanation of why and a desired timetable for such
decisions). (See pp. 5, 13, 53)

Matters referred to prosecutors, and the resulting prosecutions and convictions.
(See pp. 29, 63)

Revisions to significant management decisions on previously reported
recommendations, and significant recommendations for which NSF has not
completed its response. (See pp. 24, 56, audit reports w/ outstanding...)

Legislation and regulations that may affect the efficiency or integrity of NSF’s
programs. (See p. 9)

OIG disagreement with any significant decision by NSF management. (None)

Any matter in which the agency unreasonably refused to provide us with infor-
mation or assistance. (None)




                                                                                     79

Appendix




     80

 National Science Foundation
  Office of Inspector General
 4201 Wilson Blvd., Suite 1135
      Arlington, VA 22230
          703.292.7100




      http://www.nsf.gov/oig
To report fraud, waste, or abuse,
 call our hotline 1.800.428.2189
